<html>
<title> - H.R. 4283, THE COLLEGE ACCESS AND OPPORTUNITY ACT: DOES ACCREDITATION PROVIDE STUDENTS AND PARENTS ACCOUNTABILITY AND QUALITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





H.R. 4283, THE COLLEGE ACCESS AND OPPORTUNITY ACT: DOES ACCREDITATION 
       PROVIDE STUDENTS AND PARENTS ACCOUNTABILITY AND QUALITY?

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             June 22, 2004

                               __________

                           Serial No. 108-64

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-366                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Johnny Isakson, Georgia, Vice        Dale E. Kildee, Michigan
    Chairman                         John F. Tierney, Massachusetts
John A. Boehner, Ohio                Ron Kind, Wisconsin
Thomas E. Petri, Wisconsin           David Wu, Oregon
Michael N. Castle, Delaware          Rush D. Holt, New Jersey
Sam Johnson, Texas                   Betty McCollum, Minnesota
Fred Upton, Michigan                 Carolyn McCarthy, New York
Vernon J. Ehlers, Michigan           Chris Van Hollen, Maryland
Patrick J. Tiberi, Ohio              Tim Ryan, Ohio
Ric Keller, Florida                  Major R. Owens, New York
Tom Osborne, Nebraska                Donald M. Payne, New Jersey
Tom Cole, Oklahoma                   Robert E. Andrews, New Jersey
Jon C. Porter, Nevada                Ruben Hinojosa, Texas
John R. Carter, Texas                George Miller, California, ex 
Phil Gingrey, Georgia                    officio
Max Burns, Georgia

                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 22, 2004....................................     1

Statement of Members:
    Kildee, Hon. Dale E., Ranking Member, Subcommittee on 21st 
      Century Competitiveness, Committee on Education and the 
      Workforce..................................................     6
    McKeon, Hon. Howard P. ``Buck'', Chairman, Subcommittee on 
      21st Century Competitiveness, Committee on Education and 
      the Workforce..............................................     2
        Prepared statement of....................................     4
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................    59

Statement of Witnesses:
    Crow, Dr. Steven D., Executive Director, Higher Learning 
      Commission, North Central Association of Colleges and 
      Schools, Chicago, Illinois.................................    28
        Prepared statement of....................................    30
    Davis, Dr. James A., President, Shenandoah University, 
      Winchester, Virginia.......................................    17
        Prepared statement of....................................    19
    Erwin, Dr. T. Dary, Associate Vice President of Academic 
      Affairs, Assessment and Program Evaluation, James Madison 
      University, Harrisonburg, Virginia.........................     8
        Prepared statement of....................................     9
    Keiser, Dr. Arthur, Immediate Past Chairman, Accrediting 
      Commission of Career Schools and Colleges of Technology, 
      Ft. Lauderdale, Florida....................................    22
        Prepared statement of....................................    23
    Martin, Dr. Jerry L., Chairman, American Council of Trustees 
      and Alumni, Washington, DC.................................    12
        Prepared statement of....................................    14

Additional materials supplied:
    Benson, Bruce D., letter submitted for the record............    62
    Council of Recognized National Accrediting Agencies, letter 
      submitted for the record...................................    63
    Distance Education and Training Council, statement submitted 
      for the record.............................................    61
    Wellman, Jane V., Senior Associate, Institute for Higher 
      Education Policy, letter submitted for the record..........    60

 
 H.R. 4283, THE COLLEGE ACCESS AND OPPORTUNITY ACT: DOES ACCREDITATION 
        PROVIDE STUDENTS AND PARENTS ACCOUNTABILITY AND QUALITY

                              ----------                              


                         Tuesday, June 22, 2004

                     U.S. House of Representatives

              Subcommittee on 21st Century Competitiveness

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:30 a.m., in 
room 2175, Rayburn House Office Building, Hon. Howard P. 
``Buck'' McKeon [Chairman of the Subcommittee] presiding.
    Present: Representatives McKeon, Isakson, Petri, Castle, 
Ehlers, Osborne, Burns, Kildee, Tierney, Kind, Wu, Holt, 
McCollum, McCarthy, Van Hollen, Payne and Andrews.
    Staff Present: Kevin Frank, Professional Staff Member; 
Alexa Marrero, Press Secretary; Catharine Meyer, Legislative 
Assistant; Alison Ream, Professional Staff Member; Deborah L. 
Samantar, Committee Clerk/Intern Coordinator; Kathleen Smith, 
Professional Staff Member; Jo-Marie St. Martin, General 
Counsel; Ricardo Martinez, Minority Legislative Associate/
Education; Alex Nock, Minority Legislative Associate/Education; 
and Joe Novotny, Minority Legislative Assistant/Education.
    Chairman McKeon. A quorum being present, the Subcommittee 
on 21st Century Competitiveness of the Committee on Education 
and the Workforce will come to order. We are holding this 
hearing today to hear testimony on H.R. 4283, the College 
Access and Opportunity Act: Does Accreditation Provide Parents 
and Students Accountability and Quality?
    Under Committee Rule 12(b), opening statements are limited 
to the Chairman and Ranking Minority Member of the Committee. 
Therefore, if other members have statements, they will be 
included in the hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow members' statements and other 
extraneous material referenced during the hearing to be 
submitted into the official hearing record. Without objection, 
so ordered.

    STATEMENT OF HON. HOWARD P. ``BUCK'' McKEON, CHAIRMAN, 
  SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Good morning and thank you for joining us for this very 
important hearing today to hear testimony on accountability in 
our Nation's higher education system. This is a continuation of 
a series of hearings that we have held over the last few weeks 
to examine the provisions of H.R. 4283, the College Access and 
Opportunity Act, a comprehensive bill to reauthorize the Higher 
Education Act that aims to expand college access for millions 
of low- and middle-income students striving for higher 
education.
    I want to start by welcoming our witnesses and thanking 
them for joining us today.
    For decades, our Nation has used the peer reviewed 
accreditation system to ensure the quality of an institution of 
higher education. In order to be eligible to participate in 
student aid programs under the Higher Education Act, 
postsecondary education institutions must be accredited by a 
recognized accrediting agency. To be a recognized accrediting 
agency, the agency must be designated by the Secretary of 
Education.
    There are three kinds of accreditation: regional, national 
and specialized. Regional and national accreditation are used 
to assess overall institution quality and are required for the 
participation in the student aid programs. Specialized 
accreditation agencies look at specific programs offered by a 
postsecondary education, such as medical or business programs, 
and are generally not recognized by the Secretary as they do 
not provide access to Federal student aid programs for the 
institution.
    As most of our witnesses on the panel can attest, the 
accreditation system serves as the central component in the 
Federal Government's effort to hold institutions accountable. 
It is widely credited as an invaluable tool for measuring 
institutional quality without undue Federal control and Federal 
pressure.
    At the same time, we also have to recognize that the 
accreditation system is not perfect. While it may be a uniquely 
American institution, it is also one that--all too often--
perpetrates the status quo on campuses. Even with the 
additional requirement made in 1998 that accreditors begin to 
focus on student outcomes, the system and the institutions they 
accredit could be more effective when it comes to measuring 
academic quality. This lackluster focus on academic achievement 
and student learning outcomes has resulted in the fact that 
more than half of our Nation's students do not graduate in 4 
years. Low graduation rates may be compounded by the fact that 
parents and students lack the necessary information to 
determine whether a particular college or university is a 
quality institution or appear to meet the needs of that 
particular student. As we enter the 21st century, it is our 
duty and obligation to act to drive improvements to the current 
system.
    Recognizing the importance of accreditation, last month 
Chairman John Boehner and I introduced H.R. 4283, the College 
Access and Accountability Act, which strengthens the 
accreditation system by empowering consumers through sunshine 
and transparency. The bill also maintains the important link 
between eligibility for Federal student financial aid and 
accreditation.
    First, the bill gives consumers more information about what 
they are getting for their money. Currently, institutions of 
higher education are required to report a significant amount of 
data to the Federal Government, but the information is not 
available to students and parents in an easy-to-use and readily 
available format. The bill will require the Department of 
Education to use the information already reported by colleges 
and universities to the Federal Government to create a College 
Consumer Profile and make this information available to the 
public in a readable, understandable, consistent and clear 
format so students and families can make more informed choices 
in the college marketplace. The bill will also clarify that 
student academic achievement must be measured against the 
institution's own desired learning outcomes, not federally 
established guidelines.
    Second, the bill would make accreditation agencies more 
accountable by making information more public. Under current 
law, accrediting agencies provide limited information about 
their activities to the public and only upon request. The bill 
will make the accreditation process more transparent by giving 
students, parents and the general public more access to such 
information, helping to ensure they know what they are getting 
for their money.
    Finally, among other provisions, the bill would make 
transfer of credit policies public. With recent data showing 
more than 50 percent of students attend multiple institutions 
of higher education, it has become increasingly important for 
students to have the flexibility to transfer their credits from 
one school to another. To ease the burden of transfer for 
students and ensure fairness to the process, the bill will 
simply require institutions to have a transfer of credit policy 
and make that policy public and follow that policy.
    The College Access and Accountability Act also ensures 
credits are not unfairly and arbitrarily denied based solely on 
the accreditor of a college or university where the credits 
being transferred were earned, so long as the accreditor is 
recognized by the U.S. Secretary of Education.
    Since the introduction of H.R. 4283, many of the changes 
that the Chairman and I would make to the accreditation system 
in the bill have been criticized by members of the higher 
education community and have been portrayed as Federalizing 
higher education. These same groups have argued as a result of 
this bill that the Federal Government would be responsible for 
making academic decisions that should remain in the purview of 
those on college campuses. I am sure you will hear a little bit 
about that today.
    While I certainly respect those in the community who are 
making such arguments, I wholeheartedly disagree.
    I believe it is absolutely critical that institutions of 
higher education provide better information to parents and 
students so they can make informed decisions about what college 
or university will meet their individual needs. Even though 
institutions are required to report completion, graduation and 
placement rates to ensure that students are prepared for entry 
into the workplace, most of this information is not readily 
available to the public. By creating a College Consumer 
Profile, focusing on student learning outcomes and requiring 
accreditors to make some of their reports public, we will 
ensure that these consumers are able to accurately measure the 
academic quality of a postsecondary education; and we do so 
with no additional reporting requirements.
    In addition, I do not believe that Congress should continue 
to support institutional policies such as blanket denials of 
transfer credits that are unfair to students. We should stop 
this practice even though it may upset a few in the traditional 
higher education community who believe there should be no 
Federal role on what occurs on college campuses--except when it 
comes to dramatically increasing Federal student and research 
aid. The denial of credit transfers inhibits student completion 
and drives up the cost of postsecondary education to everyone 
involved by forcing students to take and pay for the same 
course twice.
    It is important to remember that the bill even contains 
language specifying that institutions retain all rights to deny 
credits based on the criteria they themselves established. In 
addition, some in the higher education community are already 
voluntarily implementing these provisions.
    I believe that the American higher education system is the 
best in the world. But I believe that we can still improve. 
Over the last few years, other countries have invested heavily 
in their higher education systems and are catching up to us in 
the quality of their workforce. We cannot rest on our laurels. 
By enacting these much-needed provisions, the bill will ensure 
that our higher education system is strengthened and that 
accreditors continue to play a key role in providing access to 
quality higher education for American students.
    As Congress continues the process of renewing and 
reauthorizing the Higher Education Act and builds on efforts to 
bridge the education divide for America's low- and middle-
income students, it is important for us to continue this dialog 
and continue our work on evaluating ways to improve the 
accreditation system and build on the academic excellence of 
students.
    Thank you again for joining us here today to discuss this 
important topic, and we look forward to hearing your testimony.
    I now yield to Congressman Kildee for his opening 
statement.
    [The prepared statement of Chairman McKeon follows:]

Statement of Hon. Howard P. ``Buck'' McKeon, Chairman, Subcommittee on 
 21st Century Competitiveness, Committee on Education and the Workforce

    Good morning and thank you for joining us for this very important 
hearing today to hear testimony on accountability in our nation's 
higher education system. This is a continuation of the series of 
hearings that we have held over the last few weeks to examine the 
provisions of H.R. 4283, the College Access and Opportunity Act, a 
comprehensive bill to reauthorize the Higher Education Act that aims to 
expand college access for millions of low and middle-income students 
striving for a higher education.
    I want to start by welcoming our witnesses and thanking them for 
joining us here today.
    For decades, our nation has used the peer reviewed accreditation 
system to ensure the quality of an institution of higher education. In 
order to be eligible to participate in student aid programs under the 
Higher Education Act, postsecondary institutions must be accredited by 
a recognized accrediting agency. To be a recognized accrediting agency, 
the agency must be designated by the Secretary of Education.
    There are three kinds of accreditation: regional, national and 
specialized. Regional and national accreditation are used to assess 
overall institutional quality and are required for participation in the 
student aid programs. Specialized accreditation agencies look at 
specific programs offered by a postsecondary institution, such as 
medical or business programs, and are generally not recognized by the 
Secretary as they do not provide access to federal student aid programs 
for the institution.
    As most of our witnesses on the panel can attest, the accreditation 
system serves as the central component in the federal government's 
effort to hold institutions accountable. It is widely credited as an 
invaluable tool for measuring institutional quality without undue 
federal control and federal pressure.
    At the same time, we also have to recognize that the accreditation 
system is not perfect. While it may be a ``uniquely American 
institution,'' it is also one that--all too often--perpetuates the 
status quo on campuses. Even with the additional requirement made in 
1998 that accreditors begin to focus on student outcomes, the system 
and the institutions they accredit could be more effective when it 
comes to measuring academic quality. This lackluster focus on academic 
achievement and student learning outcomes has resulted in the fact that 
more than half of our nation's students do not graduate in four years. 
Low graduation rates may be compounded by the fact that parents and 
students lack the necessary information to determine whether a 
particular college or university is a quality institution or appear to 
meet the needs of that particular student.
    As we enter the 21st Century, it is our duty and obligation to act 
drive improvements to the current system.
    Recognizing the importance of accreditation, last month Chairman 
John Boehner and I introduced H.R. 4283, the College Access and 
Opportunity Act, which strengthens the accreditation system by 
empowering consumers through ``sunshine'' and transparency. The bill 
also maintains the important link between eligibility for federal 
student aid and accreditation.
    First, the bill gives consumers more information about what they're 
getting for their money. Currently, institutions of higher education 
are required to report a significant amount of data to the federal 
government, but the information is not available to students and 
parents in an easy-to-use and readily available format. The bill will 
require the Department of Education to use the information already 
reported by colleges and universities to the federal government to 
create a ``College Consumer Profile'' and make this information 
available to the public in a readable, understandable, consistent and 
clear format so students and families can make more informed choices in 
the college marketplace. The bill will also clarify that student 
academic achievement must be measured against the institution's own 
desired learning outcomes, not federally established guidelines.
    Second, the bill would make accreditation agencies more accountable 
by making information more public. Under current law, accrediting 
agencies provide limited information about their activities to the 
public, and only upon request. The bill will make the accreditation 
process more transparent by giving students, parents and the general 
public more direct access to such information, helping to ensure they 
know what they're getting for their money.
    Finally, among other provisions, the bill would make transfer of 
credit policies public. With recent data showing more than 50 percent 
of students attend multiple institutions of higher education, it has 
become increasingly important for students to have the flexibility to 
transfer their credits from one school to another. To ease the burden 
of transfer for students and ensure fairness to the process, the bill 
will simply require institutions to have a transfer of credit policy, 
make that policy public and follow that policy. The College Access and 
Opportunity Act also ensures credits are not unfairly and arbitrarily 
denied based solely on the accreditor of a college or university where 
the credits being transferred were earned, so long as the accreditor is 
recognized by the U.S. Secretary of Education.
    Since the introduction of H.R. 4283, many of the changes that the 
Chairman and I would make to the accreditation system in the bill have 
been criticized by members of the higher education community and have 
been portrayed as federalizing higher education. These same groups have 
argued as a result of this bill that the federal government would be 
responsible for making academic decisions that should remain the 
purview of those on college campuses. I am sure that you will hear a 
little bit about that today.
    While I certainly respect those in the community who are making 
such arguments, I wholeheartedly disagree.
    I believe that it is absolutely critical that institutions of 
higher education provide better information to parents and students so 
they can make informed decisions on what college or university will 
meet their individual needs. Even though institutions are required to 
report completion, graduation and placement rates to ensure that 
students are prepared for entry into the workforce, most of this 
information is not readily available to the public. By creating a 
College Consumer Profile, focusing on student learning outcomes and 
requiring accreditors to make some of their reports public, we will 
ensure that these consumers are able to accurately measure the academic 
quality of a postsecondary education. And we do so with no additional 
reporting requirements.
    In addition, I do not believe that Congress should continue to 
support institutional policies, such as blanket denials of transfer 
credits that are unfair to students. We should stop this practice even 
though it may upset a few in the traditional higher education community 
who believe that there should be no federal role in what occurs on 
college campuses--except when it comes to dramatically increasing 
federal student and research aid. The denial of credit transfers 
inhibits student completion and drives up the cost of postsecondary 
education to everyone involved by forcing students to take and pay for 
the same course twice.
    It is important to remember that the bill even contains language 
specifying that institutions retain all rights to deny credits based on 
the criteria they themselves establish. In addition, some in the higher 
education community are already voluntarily implementing these 
provisions.
    I believe that the American higher education system is the best in 
the world. But, I believe that we can still improve. Over the last few 
years, other countries have invested heavily into their higher 
education systems and are catching up to us in the quality of their 
workforce. We can not rest on our laurels.
    By enacting these much needed provisions, the bill will ensure that 
our higher education system is strengthened and that accreditors 
continue to play a key role in providing access to quality higher 
education for American students.
    As Congress continues the process of renewing and reauthorizing the 
Higher Education Act and builds on efforts to bridge the educational 
divide for America's low and middle-income students, it is important 
for us to continue this dialogue and continue our work on evaluating 
ways to improve the accreditation system and build on the academic 
excellence of students.
    Thank you again for joining us here to discuss this important topic 
and we look forward to your testimony.
                                 ______
                                 

STATEMENT OF HON. DALE E. KILDEE, RANKING MEMBER, SUBCOMMITTEE 
ON 21st CENTURY COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE 
                           WORKFORCE

    Mr. Kildee. Thank you, Mr. Chairman. Good morning.
    I join my good friend, Chairman McKeon, in welcoming the 
witnesses before the Committee today.
    Mr. Chairman, we have assembled a very distinguished group, 
both individually and collectively; and I am sure we will 
benefit a great deal from their testimony.
    Accreditation is not a topic that many of us focus on in 
higher education, but it is something that we touched in 1998 
and are now looking at again. This Committee is often occupied 
over what interest loans will be charged students or how much 
grant aid will be provided to them and how will it be provided. 
While these topics generate the headlines, accreditation is a 
critically important element in ensuring that we have high-
quality institutions of higher education.
    Strong accreditation agencies that are reasonably 
transparent in their operation are one of the keys to ensuring 
integrity and viability among institutions and the students 
they serve. Without accreditation, we would lose an important 
element of the governance triad, affecting the operation of 
institutions of higher education.
    The bill recently introduced by Chairmen McKeon and Boehner 
makes a number of changes in the role that accreditors play. In 
order for accreditation to be a positive force for improvement 
in higher education, accreditors need to focus on improving 
quality at institutions. We should not take away from this 
focus by requiring accreditors to publicize information on 
institutions. Instead, this is a more appropriate role I 
believe for the U.S. Department of Education and State 
Departments of Education. H.R. 4283 attempts also to ensure the 
public has a better understanding of how accreditation works 
and the results of the accreditation process.
    I am interested in hearing more from our witnesses about 
public disclosure. Overall, I think it benefits us to provide 
information to the public on how accreditation works and the 
results of the accreditation process. However, I am mindful 
about the concerns of institutions that disclosure may lead to 
unfair comparisons with other schools. The trick here is to 
find the right balance. We need to work to do so. The overall 
key to ensuring accreditation remains a positive force in 
higher education and ensures its independence and integrity of 
the process. The moment that Congress or the executive branch 
begins to affect this independence, I believe this integrity 
will be compromised.
    I look forward to continuing our discussions on this matter 
and yield back the balance of my time to my Chairman and 
friend, Mr. McKeon.
    Chairman McKeon. Thank you, Mr. Kildee.
    We have a very distinguished panel of witnesses, as Mr. 
Kildee has said; and we are going to introduce them.
    First, we have Dr. Thomas Erwin. Dr. Erwin currently serves 
as Associate Vice President of Academic Affairs for Assessment 
and Program Evaluation at James Madison University. In this 
capacity, Dr. Erwin coordinates the assessment of students' 
learning and development, overseeing the assessment activities 
of the center, including the collection and analysis and 
reporting of assessment information for learning and 
development.
    Next, we have Dr. Jerry Martin. Dr. Martin currently serves 
as Chairman for the American Council of Trustees and Alumni. 
From 1988 to 1995, Dr. Martin held senior positions at the 
National Endowment For the Humanities, including Acting 
Chairman in 1993. Prior to joining the NEH, Dr. Martin served 
as Chairman of the Philosophy Department at the University of 
Colorado at Boulder.
    Next, we have Dr. James Davis. Dr. Davis has served as 
President of Shenandoah University in Winchester, Virginia, 
since 1982. Before joining Shenandoah University, Dr. Davis 
held numerous faculty and administrative positions at Ferrum 
College located in Ferrum, Virginia. Dr. Davis has also served 
as an elected member of the Commission of Colleges of the 
Southern Association of Colleges and Schools for 6 years.
    Then, Dr. Arthur Keiser. Dr. Keiser is the Immediate Past 
Chairman of the Accrediting Commission of Career Schools and 
Colleges of Technology, a national accrediting agency whose 
goal is to maintain educational quality in the career schools 
and colleges it accredits by striving to ensure academic 
excellence and ethical practices. Dr. Keiser also serves as 
Chancellor and CEO of the Keiser Collegiate System.
    And, finally, Dr. Steven Crow. Dr. Crow currently serves as 
Executive Director of the Higher Learning Commission for the 
North Central Association of Colleges and Schools where he 
provides leadership to the Commission and its membership of 986 
institutions. Previously Dr. Crow served on the Commission's 
Critical Issues Committee and also served on the Commission's 
Committee on Organizational Effectiveness and Future 
Directions.
    Before beginning, let me explain the system in front of 
you. We have a timing system that comes on, a green light when 
your time begins. When you have a minute left to go, it goes to 
the yellow and then finally to the red, which means your time 
is up. And if you haven't finished at that time, would you wrap 
up.
    Your full testimonies will be included in the record, and 
we would like you to feel free to explain to us what you are 
here to explain to us today.
    Chairman McKeon. We will begin with Dr. Erwin.

  STATEMENT OF DR. T. DARY ERWIN, ASSOCIATE VICE PRESIDENT OF 
 ACADEMIC AFFAIRS FOR ASSESSMENT AND PROGRAM EVALUATION, JAMES 
           MADISON UNIVERSITY, HARRISONBURG, VIRGINIA

    Dr. Erwin. Thank you, Mr. Chairman.
    James Madison University is a public institution of about 
16,000 students in the Commonwealth of Virginia. Our Assessment 
Center is probably one of the largest campus-based assessment 
centers devoted to collegiate assessment in the United States.
    We focus in three areas. We assess in general education, 
which is the course work that all students take, regardless of 
major. We also assess in the major, and we assess out-of-class 
activities and student affairs. Some of the areas of general 
education that we measure are information literacy and 
technology, written communication, oral communication, 
scientific reasoning and quantitative reasoning. We use the 
assessment data to improve our curriculum, to improve our 
degree requirements and to evaluate new instructional delivery 
approaches, such as maybe a software package.
    From the national picture, higher education institutions 
have been slow and reluctant to systemically measure student 
learning in general education in a programmatic way. It is a 
very hard job, and it is threatening the faculty and presidents 
alike and involves much complexity.
    In terms of the State picture, most States have some kind 
of policy or mandate about assessment in place. These policies 
vary from Statewide tests such as Georgia's Regents Exam to the 
majority of institutions where the States allow the 
institutions to assess in their own way.
    As you know, many States have funded their institutions 
based on head counts or enrollments. But in the past few years 
States have been experimenting linking quality with funding, 
sometimes called performance funding and performance budgeting. 
States have been struggling with doing this because they have 
been struggling with how to define and measure college quality. 
Often States will only collect what data are available, which 
many times are things like outputs, which, as you know, does 
not necessarily indicate what and how well students have 
learned at a particular institution.
    The current state of assessment practice still makes it 
improbable to generalize beyond a single institution and in 
many cases difficult to generalize within a single institution.
    From the consumer point of view, as you have noted, the 
consumers are hungry for information about college quality. 
Perspective students, their parents, employers, for example, 
desire information about what students acquire from a 
particular institution and they want to know what the value of 
the knowledge and skills is. All you have to do is look to the 
rankings of institutions and see how popular those are. But if 
you look to see how those are determined, if you use the U.S. 
News and World Report as an example, they are largely 
determined by institutional reputation, the amount of resources 
deployed toward the curriculum, outputs, admissions selectivity 
and alumni giving rates, nothing about achievement in student 
learning.
    In terms of accrediting organizations, as you are aware, 
whether they are regional or professional, they are 
increasingly emphasizing assessment of student learning. In my 
opinion, the accrediting organization's role has been a very 
positive influence, helping institutions focus on educational 
results and not just description of resources, which is the way 
it was in the past.
    In terms of the Federal role, you may consider whether an 
increased role would be beneficial; and I think it would. The 
U.S. Department of Education's involvement in K through 12 has 
been very positive, but there still seems to be a void at the 
collegiate level when it comes to the assessment of collegiate 
learning. The issues are so complex and the job is so big that 
a single State can feel overwhelmed.
    Regarding your H.R. 4283, in section 1025, I applaud 
generally what you have in that section. I would offer one 
suggestion that you consider that you might add. What you have 
in the report is you have a review of current practice. What I 
would suggest that you put in there is ask that Committee to 
put in some action-oriented steps that would move us beyond 
where we are today. I am not advocating a particular assessment 
instrument, nor am I advocating that you dictate what we 
measure. I use the analogy of the packages on foods, the labels 
on the sides, the ingredients. Wouldn't it be helpful to know 
what knowledge, skills and personal characteristics that 
college graduates possess? Such information would benefit both 
individuals and society.
    So I applaud your Committee for looking at this issue of 
collegiate outcome assessment, and I hope you can move us 
beyond the current state of assessment. Thank you.
    Chairman McKeon. Thank you very much.
    [The prepared statement of Dr. Erwin follows:]

 Statement of Dr. T. Dary Erwin, Associate Vice President of Academic 
 Affairs, Assessment and Program Evaluation, James Madison University, 
                         Harrisonburg, Virginia

    Thank you for the opportunity to discuss college student outcome 
assessment. As background about my own institution, I started and 
oversee the Center for Assessment and Research Studies at James Madison 
University in the Shenandoah Valley of Virginia. James Madison is a 
publicly supported institution of about 16,000 students.
    Our Assessment Center is probably the largest campus based 
assessment center in the country and has been in operation since 1986. 
We have nine doctoral level assessment faculty and focus on assessment 
of general education, the major, and out-of-class activities in student 
affairs.
    Since 1987, we have annually tested all entering freshmen, about 
3600 students, just prior to matriculation, and then retest them about 
two academic years later in general education. The general education 
areas in which we regularly assess are: technology and information 
literacy, oral communication, written communication, critical thinking, 
arts and humanities, quantitative reasoning, scientific reasoning, 
government, and wellness.
    We utilize several analytical strategies for analyzing these data:
    1.  competency--in technology, in information literacy and in oral 
communication--how many students reach a standard?
    2.  value-added or longitudinal change--in all the other areas of 
general education listed above--how much do students change or learn in 
their first two years of college?
    3.  course impact--compare students in a given area of general 
education who have not yet complete any courses versus who have had one 
course versus who have had two or more courses--student should do 
better on the related outcome measure the greater number of courses 
completed.
    We use the assessment data to improve our curriculum, to improve 
our degree requirements, and to evaluate the effectiveness of 
instructional delivery approaches such as a particular instructional 
software package.
    For example, in 1996, we completely reworked our general education 
program, which is approximately one-third of our undergraduate 
curriculum, largely because we had mixed assessment results. In the new 
curriculum, we established policies that every general education course 
sequence must regularly demonstrate positive student learning for those 
courses to remain in the curriculum. Each academic department's annual 
report features their assessment results of their respective major 
programs and if applicable their part of general education. Each 
academic department unit lead is evaluated on the viability of their 
department's assessment efforts.
National Picture
    In general, higher education institutions have been slow and 
reluctant to systematically measure student learning in a programmatic 
way. It is a hard job, can be threatening to faculty and presidents 
alike, and involves much complexity. Faculty, of course, give course 
examinations, but most institutions do not use common measures 
particularly in general education across an institution. General 
education is the coursework that all students take regardless of major. 
I view general education as the primary focus for accountability 
purposes because it is the imprint of every graduate of the 
institution.
    According to Gaff of the Association for American Colleges and 
Universities, over 90% of the colleges and universities deploy the 
distribution system of general education whereby students select one to 
three courses from a given distribution area such as social science 
where many courses are listed. Generally, the more courses listed in a 
given distribution area for students to chose from, the more difficult 
it is to have commonalities among all the courses listed. Assessing a 
given distribution area becomes problematic then when there is little 
instructional content or skills in common.
    The problem of defining and therefore assessing general education 
is magnified if one goes beyond the institution and tries to develop 
commonalities among several institutions such as at a state level. Most 
institutions have not developed measurable, specific learning 
objectives, sometimes referred to as ``content standards'' in general 
education. Common ``performance standards'' are more rare when an 
institution sets a single cut-off score on an assessment instrument in 
any given area of general education.
States
    Most states have some kind of policy or mandate regarding 
assessment. These policies vary from statewide tests such as Georgia's 
Regents Exam to the majority of states that allow for institutions to 
choose their own ways of assessing. Some states such as Virginia 
designate the areas that are to be assessed: technology, written 
communication, scientific reasoning, quantitative reasoning, oral 
communication, and critical thinking.
    Too often institutions over utilize self-report surveys as the 
primary measures of student learning. What students think they learn 
can be different than what they actually learned.
    In the past few years, states have been experimenting with linking 
``quality'' and funding but struggle with defining and measuring 
quality. Often states collect only what data are available, but these 
data usually do not include about student learning. For example, 
outputs such as graduation rates are available, but these do not 
describe how or what students have learned. I believe many states would 
benefit from assistance in improving their current policies and 
procedures.
    The current state of assessment practice still makes it improbable 
to generalize beyond a single institution, and in many cases difficult 
to generalize within a single institution.
Consumers
    As you have noted, the consumer is hungry for information about 
quality. Prospective students, their parents, and employers desire 
information about what students acquire from a particular institution 
and what the value of that knowledge and skills has. For instance, look 
at the popularity of ranking systems such as the US News and World 
Report rankings. Unfortunately, those rankings are determined largely 
by reputation, resources, outputs, admissions selectivity, and alumni 
giving rates. No comparable student learning data are available for the 
public to view.
Accrediting Organizations
    As you probably know, accrediting organizations, whether regional 
or professional, are increasingly emphasizing assessment of student 
learning. Before 1985, few institutions reported any results about 
student learning in accreditation reports. In my opinion, the 
accrediting organization's role has been a very positive influence 
helping institutions focus on educational results not just description 
of resources. But the acceptance of including student learning data in 
institutional reviews has been slow.
Federal Role
    In my opinion, an increased role by the federal government would be 
welcome. The US Department of Education's involvement has been very 
positive at the K-12 level, but there seems to be a void of leadership 
when it comes to assessment of collegiate learning. No single entity 
seems to be coordinating collegiate assessment. I believe some time and 
effort could be saved if practices and instruments could be shared, for 
example. The issues are so complex and the job so big that a single 
state can feel overwhelmed.
    Here are some current advances that could be spotlighted at the 
national level that could raise the sophistication of all of collegiate 
assessment: highlighting the advancements of automated computer scoring 
of writing, using advanced measurement techniques such as item response 
theory to reduce bias in assessment instruments, featuring computer 
based testing that utilizes multimedia capabilities allowing us to 
formulate better test questions, using advancements in cognitive 
psychology to assess where a student's misconceptions lie so 
remediation can be better planned, and encouraging new assessment 
instruments to encourage greater sophistication of our measuring tools. 
Regarding the last point, a colleague and I are designing an instrument 
called the Curiosity Index to measure one's intrinsic motivation to 
learn that is central to lifelong learning.
    Similar to the food labels listing the ingredients, wouldn't it be 
helpful to know what knowledge, skills, and personal characteristics 
college graduates possess? Such information would benefit both 
individuals and society. I applaud this committee for looking at the 
issue of collegiate outcome assessment, and I hope you can help us move 
the current state of affairs forward.
Some Miscellaneous Comments About Assessment Procedures
    At my institution, we have designed our own assessment instruments 
in general education, and are just establishing standards or cut-off 
scores in each area of general education. Competence is then achieved 
by an individual student reaching a particular cutoff score; again our 
current areas of competency are in technology (Word, Excel, 
Powerpoint), in information literacy (the ability to find, access, and 
find credible information usually stored in electronic form), and in 
oral communication. All of these instruments are computer-based tests.
    As you know, there is much attention on the delivery of instruction 
via technology, but there is little attention to the delivery of 
assessment and testing via technology. We can ask better and more 
sophisticated test questions by incorporating multimedia components 
such as music, speeches from national leaders for government test 
questions, and video vignettes of speeches for public speaking courses.
    Testing, as you may know, also has a very technical side. 
Reliability, or the precision at which we measure a student's ability, 
is critical and is validity, or the match between the learning 
objectives/content standards and the given test.
    In general, most available collegiate assessment instruments have 
not used the most advanced measurement techniques. When we reviewed the 
problem solving, critical thinking, and writing collegiate assessment 
instruments for the National Postsecondary Education Cooperative (which 
receives financial support from NCES), very few testing instruments 
were designed with advanced techniques such as item response theory, 
generalizable measurement theory, or structural equation modeling.
    For example, very few proprietary collegiate assessment instruments 
examine test item bias. This procedure is very common in college 
admissions tests and in K-12 tests. The shortage of reliable and valid 
assessment instruments for our institution is one reason our Assessment 
Center has the staff it does.
    There are some exciting advances in the automated computer scoring 
of writing. Research has shown that the computer is more consistent in 
its ratings than people. And the relationship between the computer 
generated ratings and human ratings is moderately high.
H.R. 4283
    I applaud Sec. 1025, ``Study of Student Learning Outcomes and 
Public Accountability'' (p. 201-203). I would offer two suggestions for 
additions. First, under point 3, p. 202, regarding instruments, please 
add ``and sophistication.'' For example, our most advanced thinking in 
cognitive psychology and psychometrics should be brought to bear on 
existing practice. And second, I would also submit for your 
consideration that you request the report to offer recommendations for 
further steps. It is certainly useful to have summaries of the current 
status of state efforts, overlap in institutional effectiveness 
requirements among the accrediting organizations, and a review of 
existing instruments; but what is needed, in my opinion, is a series of 
action-oriented steps that outline how to achieve that an assessment 
process of student learning exists at each institution. This process is 
outlined to some extent in the regional accrediting associations, but 
more guidance could be established. Each college and university has 
learning as part of its mission, but not every college and university 
evaluates student learning in a programmatic way.
    I am not advocating selection of a particular assessment 
instrument, nor am I advocating that you dictate what is to be 
measured. However, I do believe it is important to have aggregated 
information about student learning in general education that is 
available to the public.
    Thank you again for the opportunity to share some ideas.
                                 ______
                                 
    Chairman McKeon. Dr. Martin.

 STATEMENT OF DR. JERRY MARTIN, CHAIRMAN, AMERICAN COUNCIL OF 
             TRUSTEES AND ALUMNI, WASHINGTON, D.C.

    Dr. Martin. Amen to that, for openers.
    I would like to commend the Chairman and Mr. Kildee and 
members of this Committee for boldly thinking about these 
issues and taking them seriously.
    The American Council of Trustees and Alumni today would 
like to testify in support of one particular provision in H.R. 
4283, which is to restore the provision that allowed States to 
qualify as accrediting agencies. As you know, that was the 
original intent of the legislation. It was removed somewhat 
arbitrarily about 10 years ago and should be restored.
    I want to put that in a larger context. There is what some 
people call an accountability revolution going on in higher 
education. What you just heard from Dr. Erwin is part of that 
revolution. The heart of the accountability revolution is an 
emphasis on educational performance, on results, on outcomes 
and not just inputs and on cost-effective education.
    Who is leading the revolution? I will tell you. It is not 
the institutions, despite some outstanding examples; and it is 
not the accreditors, sad to say. It is really State leaders. It 
is Governors, legislatures, State higher education commissions, 
boards of trustees who are leading the accountability 
revolution.
    And if you ask why, you know, why is this such a burning 
concern in so many States, well, they are responding to the 
concerns of their constituents, of parents and students, of 
employers and taxpayers who are really quite worried that we 
aren't getting all we should for our investment and that the 
next generation isn't going to be as well prepared as it should 
be to face the challenges of the 21st century.
    In fact, studies show that their concerns are well founded. 
Employers report that college graduates can't write, as one 
testified before one commission. They can do--speaking of his 
employees in a high-tech firm, they can do the technicals but 
can't write the memo.
    Grade inflation, just to mention another example, is 
rampant; and the leading researcher at Duke University reports 
that at virtually every college that has studied the problem it 
is getting worse.
    At many colleges today, students can graduate without 
taking such core subjects as English, history, math and 
science. This new study, literally hot off the press as of 
yesterday, called ``The Hollow Core'', referring to core 
requirements, finds that of colleges studied, just to give you 
a couple of examples, only 14 percent require either American 
history or government, yet they are supposed to be preparing 
people for citizenship. And not one requires economics, which 
is really a scandal in today's economy. Instead, students are 
permitted to meet requirements with courses such as--and these 
are real examples, I kid you not--history of comic book art, 
rock music since 1970, campus culture and drinking. And one can 
go on with that list, where you would laugh; if not, you would 
want to cry. Needless to say, all these schools are fully 
accredited.
    Accreditors talk about quality, but if you look at their 
deeds or the results and not just their words, you really have 
to ask, where is the beef? Over the last 4 years--the reports 
themselves are secret, so you have to go with those reported in 
the Chronicle of Higher Education, which is the newspaper of 
record for higher education--47 cases have been reported where 
accreditors are threatening a school over financial 
mismanagement. They seem to do a good job when it comes to 
helping to close down a financially insolvent school, although 
the market is, in effect, closing the school down. The 
accreditors want to make it official, I guess you would say, so 
they are looking at financial issues. But not a single case has 
been reported of an accreditor sanctioning a school or 
threatening it because of grade inflation where its graduates 
can't write, where its curriculum is incoherent, where the 
teaching is poor. Not a single case.
    In a way, you can't blame the accreditors. It is hard to 
police your own members. They are part of that world of higher 
education.
    Well, the American Council of Trustees and Alumni think it 
is time to go back to the original intent of the Higher 
Education Act. Originally, the Act permitted two options for a 
college. The college could be accredited either by a private 
association, if they so chose, or by the State, if they so 
chose. Either one was possible.
    The system worked well and yet, in 1991, an arbitrary 
restriction was put in disallowing States from being recognized 
by the Secretary of Education as accreditors. One State was an 
exception, and that was New York, who was grandfathered in and 
still does accrediting in some areas to this day without any 
problem.
    Well, this arbitrary restriction should be removed. State 
accreditation is OK for New York. It was OK for all States 
until 1991. It should be OK for other States today.
    To sum up, Mr. Chairman, let me just say there are three 
advantages to allowing the State option:
    No. 1, the States are well-equipped and motivated to do 
this job. Every State already has a procedure for certifying 
which institutions of higher education operate within its 
borders. In recent years, State governments have made dramatic 
efforts to improve accountability, reward performance and 
achieve greater cost effectiveness, done without the help of 
accreditors. After all, it is their young people and their tax 
dollars at stake.
    No. 2, the State option is entirely voluntary. They can 
choose to do it or not do it. The college, they can choose to 
go to their State or to remain with a private accreditor.
    No. 3, the State option adds competition. There is little 
incentive other than prodding from this Committee and this 
Congress for accreditors to improve as long as they have a 
monopoly. Competition can be a very effective motivator for 
reform.
    Thank you, Mr. Chairman.
    Chairman McKeon. Thank you.
    [The prepared statement of Dr. Martin follows:]

    Statement of Dr. Jerry L. Martin, Chairman, American Council of 
                  Trustees and Alumni, Washington, DC

    It is often said that American higher education is ``the envy of 
the world.'' This is certainly true in areas such as science, medicine, 
engineering and other technical fields. It is also true with regard to 
access--the large percentage of the population that attends college.
    But in some other respects, American higher education is less 
impressive.
    Employers complain that graduates cannot write. ``They can do the 
technicals,'' one said, ``but they can't write the memo.'' Yet not a 
single case has been reported of accreditors sanctioning a school on 
these grounds.
    A Roper survey, described in the American Council of Trustees and 
Alumni's report, Losing America's Memory, found that college seniors, 
even at top colleges, do not know American history. Only one-quarter 
could identify James Madison as the Father of the Constitution, George 
Washington as the victor at the battle of Yorktown, or the most famous 
words from the Gettysburg Address. It was not hard to locate one source 
of the problem: none of the colleges require American history for 
graduation. Yet they are all accredited.
    Grade inflation is rampant, and is getting worse. Nothing is more 
essential to upholding quality and motivating academic achievement than 
giving honest grades. Another ACTA report, Degraded Currency: The 
Problem of Grade Inflation, summarizes current research on the topic. A 
comprehensive study by Columbia's Arthur Levine and Jeannette Cureton, 
finds that the percentage of A's has increased from 7 percent of all 
grades in 1969 to 26 percent by 1993. During the same time period, the 
C grades fell by 66 percent. The problem has grown worse since that 
time. Based on his ongoing study of grade inflation, Duke's Stuart 
Rojstaczer reports that, ``The rise has continued unabated at virtually 
every school for which data are available.'' To cite one particularly 
timely example, the Boston Globe recently reported that, in the last 
two years, the number of A's and A minuses at Harvard actually 
increased from 46.4 percent to 47.8 percent. Every student graduates 
with honors who is not in the bottom 10 percent of his or her class. In 
spite of the pervasiveness of this problem, we are not aware of a 
single instance of a school being sanctioned by the accreditors for 
grade inflation. In fact, no case has been reported of the issue even 
having been raised by accreditors.
    Probably the most important question about a college is: What are 
students studying and learning--in short, what is the college 
curriculum? Most importantly: What courses are required for every 
student? Yet, there is massive evidence for the fact that, under the 
current accrediting system, the college curriculum has fallen apart.
    ACTA's new study, The Hollow Core, examines the general education 
offerings at 50 colleges and universities, including the Big Eight and 
Big Ten, the Ivy League, and the Seven Sisters. The study finds that 
college requirements have so many loopholes, students can often 
graduate without taking core subjects such as math, science, 
composition, literature, economics, or American history or government. 
Not one of the surveyed colleges requires a general course in 
economics. Only 12 percent mandate a general course in literature, 
while a mere 14 percent insist that their students study American 
history or government. Needless to say, all these colleges are 
accredited.
    Instead of solid core requirements, many colleges now offer 
students a cafeteria-style menu of hundreds of often narrow and even 
odd courses. At various universities, the humanities requirement, which 
used to require broad courses such as History of Western Civilization, 
can be met by such narrow courses--these are all real examples--as 
``History of Country Music,'' ``Movie Criticism,'' or ``Dracula.'' The 
literature requirement, once a survey of English literature, can now be 
met by such courses as ``Quebec: Literature and Film in Translation'' 
and ``The Grimms'' Fairy Tales, Feminism, and Folklore.'' History 
requirements can be met by ``History of College Football,'' ``History 
of Visual Communication,'' or ``Sexualities: From Perversity to 
Diversity.''
    Borrowing from Cole Porter, the Association of American College's 
study, Integrity in the Curriculum, concluded that, as for what passes 
as a college curriculum, ``Almost anything goes.''
    In theory, the accreditors should be the guardians of academic 
quality. In reality, it has taken enormous external pressure, including 
explicit Congressional directives, to persuade accreditors to address 
more directly issues of educational quality and student learning. In 
response, accreditors have added some general language like the 
following from the Middle States Association: ``The kinds of courses 
and other educational experiences that should be included in general 
education are those which enhance the total intellectual growth of 
students, draw them into important new areas of intellectual 
experience, expand cultural awareness, and prepare them to make 
enlightened judgments outside as well as within their specialty.'' The 
North Central Association requires ``a coherent general education 
requirement consistent with the institution's mission and designed to 
ensure breadth of knowledge and to promote intellectual inquiry.''
    It is hardly surprising that, when the Office of the Inspector 
General of the U.S. Department of Education reviewed the criteria of 
the North Central Association, it found them devoid of any ``specific 
measures to be met by institutions'' and insufficient for 
distinguishing between compliance and non-compliance. Such criteria 
ensure that colleges will pay lip-service to sound educational goals, 
but not that they actually deliver a solid education to their students.
    Few and far between are the examples of colleges whose 
accreditation has been denied on grounds of educational performance. As 
DePaul University's David Justice writes, ``The truth of the matter is 
that regional accrediting associations aren't very good about 
sanctioning an institution for poor quality.''
    If the accreditors are lax when it comes to enforcing standards of 
educational quality, what demands are they placing on universities? The 
accrediting reports themselves are secret, but a review of 
accreditation problems reported over the last four years in The 
Chronicle of Higher Education found that--with only a few exceptions 
outlined below--all of the 47 U.S. colleges placed on probation were in 
trouble because of financial insolvency.
    Yet, in this area, accreditors are largely redundant. The market 
has already rejected these institutions and is in the process of 
putting them out of business. Moreover, the financial health of 
institutions of higher learning is already certified by the U.S. 
Department of Education. No institution may receive federal funds until 
the Department verifies its eligibility and certifies its financial and 
administrative capacity. In addition, as the accreditors themselves 
admit, the bond-rating services establish financial viability on the 
basis of a more thorough review than accreditors.
    Accreditors mainly focus, not on educational performance or 
results, but on a variety of inputs, including the number of books in 
the library, the credentials and demographics of the faculty, student 
credit hours, what percentage of students live on campus, how many 
courses are offered at night, and so forth. They seem especially 
interested in procedures--shared governance procedures, appointment and 
tenure procedures, grievance procedures, program review procedures, and 
so forth.
    Former U.S. Senator Hank Brown, who recently served as President of 
the University of Northern Colorado, reports that the accreditors did 
not ask what the students were learning but focused mainly on whether 
the faculty was happy.
    The Chronicle of Higher Education reported last month that 
accreditors told the University of North Dakota governing board to drop 
the institution's Indian-head logo and Fighting Sioux nickname.
    The same accrediting agency evaluated the University of Illinois at 
Urbana-Champaign and objected to the University's mascot--Chief 
Illiniwek.
    Currently, Auburn University's accreditation is threatened 
primarily because the board of trustees is said to micromanage the 
athletic program. ``None of the problems relate to education,'' reports 
The Chronicle.
    One has to wonder whether challenging colleges over mascots and 
trustee involvement in athletics are what Congress envisioned when it 
gave accreditors the power to cut off a university's federal funds. Yet 
these are the only reported cases of sanctions on non-financial 
grounds.
    Accreditors talk about ensuring quality but, if we look at their 
track record, we have to ask: ``Where's the beef?''
    What is the solution?
    First, the ideal solution is to get the federal government of the 
accreditation business. Let private accreditors be private again. That 
worked fine before the federal government became involved and it will 
work fine again. If colleges want to be accredited, fine. If 
accreditors get out of line, as they sometimes do, the college can just 
drop them. Private accreditors would no longer have the power of the 
federal government behind them.
    That does not mean that the federal government would have to become 
an accreditor. For the purposes of making sure that federal funds going 
only to bona fide colleges, a much simpler and less expensive procedure 
could be established. Colleges could be required to answer questions 
that demonstrated their legitimacy--with penalties for fraudulent 
declarations. That should be sufficient to identify the institutions 
that are ``colleges'' in name only.
    Second, there is a lively market in higher education. What college 
to attend is a decision that consumers take very seriously. Yet 
accreditation evaluates colleges and then keeps the evaluations secret. 
Useful information is being wasted. Massive data gathering occurs prior 
to an accreditation visit. Relevant parts of this data should be shared 
with the public. The College Consumer Profile envisioned in this bill 
is very promising in this regard.
    Third, if accreditors have a poor record when it comes to ensuring 
quality, why not allow an alternative? There is an accountability 
revolution in higher education, but it does not come from the 
accreditors or from what is euphemistically called ``the higher 
education community.'' It comes from the states--from Governors, 
legislators, state higher education commissions, boards of trustees, 
business leaders, and parents. Let me just give you two examples:
    1. Trustees are appointed to represent the public interest and, 
with the assistance of ACTA, are becoming increasingly active and 
expert in overseeing quality. The City University of New York board of 
trustees raised admissions standards, removed remediation from the 
senior colleges, and now requires that students pass an independently 
administered examination before they move to upper-division course 
work. Boards of trustees in a number of states are taking proactive 
steps to demand more rigorous core requirements for their students. 
None of these improvements were the results of accreditors' 
recommendations.
    2. State higher education agencies--such as the Colorado Commission 
on Higher Education and the State Council of Higher Education for 
Virginia--are framing performance measures that look at educational 
results and not just inputs. Hank Brown, who became a college president 
after serving in the Congress, reports that, while the accreditors did 
not ask questions about what students were learning, one agency did--
the Colorado Commission on Higher Education. Meanwhile, Virginia's 
State Council now collects and annually releases the results of 
institution-based assessments of student learning to help ensure 
academic quality.
    The regional accrediting associations function as de facto cartels. 
Monopolies are not good at self-correction. The best medicine is 
competition. Whereas accreditors have shown great reluctance to become 
meaningfully involved in educational standards and student learning, 
the states have shown an intense interest in making sure their colleges 
and universities provide a first-rate education to all their citizens. 
The money is coming out of their pockets, in taxes and tuition, and it 
is their kids who are being educated--or failing to be educated. The 
original Higher Education Act allowed states, if they so chose, to 
provide an alternative to accreditors. About ten years ago, this option 
was arbitrarily deleted. Now only New York has this right. H.R. 4283 
wisely restores this option for any state that wishes to exercise it.
    ACTA believes that eliminating this arbitrary restriction and 
allowing all states the option of providing accreditation to 
institutions within their states would provide several benefits:
    1. Every state already has some mechanism for certifying 
institutions of higher education operating within their states. The 
states are competent to do the job of accreditation and might do it 
better. In recent years, state governments have made considerable 
efforts to improve accountability, reward performance, focus on outputs 
not just inputs, and achieve greater cost-efficiency.
    2. The states are accountable to the voters and the taxpayers. The 
regional accreditation associations are accountable to their own 
members, namely, the universities they accredit.
    3. Colleges and universities that feel they are being treated in 
unfair and arbitrary ways by accreditors should have recourse to a 
legitimate alternative. Absolute power corrupts.
    4. There is little incentive for the regional accreditors to 
improve so long as they have a monopoly. Competition, even the 
possibility of competition, can be very effective in motivating reform.
    The American Council of Trustees and Alumni would like to thank the 
House Committee on Education and the Workforce for addressing these 
issues thoughtfully, candidly, and boldly on behalf of the students and 
parents of America.
                                 ______
                                 
    Chairman McKeon. Dr. Davis.

STATEMENT OF DR. JAMES DAVIS, PRESIDENT, SHENANDOAH UNIVERSITY, 
                      WINCHESTER, VIRGINIA

    Dr. Davis. Thank you Chairman McKeon, Ranking Member Kildee 
and members of the Subcommittee. I feel a great deal of 
affinity for your work today, having served three terms in the 
Virginia legislature and sitting on the House Education 
Committee there.
    I am testifying today basically on behalf of the National 
Association of Independent Colleges and Universities, which 
represents nearly a thousand private, nonprofit colleges and 
universities and related associations. My own university, 
Shenandoah University, has approximately 2,800 students located 
in the Shenandoah Valley of Virginia.
    I think democracy is a wonderful thing, and my colleague 
looks through one set of lens at higher education and I look 
through an entirely different set of lens. I can assure you in 
my work as a State legislator, the State option for 
accreditation is not a good one; and if we have time we can 
probably explore that in a little more detail.
    The current accreditation system is a uniquely American 
institution. In most other nations, quality reviews are done by 
centralized government authorities. They do not have the best 
higher education system in the world, we do; and we have it 
because of the unique relationship that exists between peer 
review and appropriate levels of government involvement. 
Certainly peer accreditation has its challenges, but, by far, 
it is still the best system in the world, and it is getting 
better all the time.
    I have to chuckle because I started out as a young critic 
of accreditation of the Southern Association of Colleges and 
Schools and of some 16 specialized accrediting bodies that 
currently accredit programs at my institution. Over a period of 
the past 30 years, I have now chaired more than 25 Committees 
for accreditation at institutions throughout the South; and I 
can assure you that those are rigorous reviews and that the 
results of those reviews do bring about change.
    Certainly, accreditation can be improved, but it is not a 
system that you will want to destroy in any way. Well, how do 
we make it continue to work? We make it continue to work 
through partnerships. We need to continue to define roles and 
maintain that appropriate balance between government and peer 
independent review. That is essential if we want to maintain 
the autonomy of the independent sector. Because the more 
control that is put on our system the less freedom that is 
there to be creative and bring about changes, oftentimes, that 
occur in the public sector because of the ability to innovate.
    Why does House bill 4283 have unintended consequences? 
Primarily because it shifts responsibilities in some key areas 
that I think are not wise for our country. One in particular is 
shifting the enforcement of data collection that the Department 
of Education should do for monitoring consumer profile 
information. That should stay with the Department of Education 
and not be pushed over into accreditation.
    The monitoring of distance education on a greater basis 
than is currently the case, in my opinion, would not be wise. 
Almost every institution of higher education that I know today 
has some distance education, either for their traditional 
students or for other students. It is being evaluated. 
Institutions do understand the cost and the integrity needs for 
distance education; and it does not require, in my opinion, 
drastic measures, simply tweaking and encouraging current 
accreditation processes to continue to improve and work better.
    Finally, I mentioned earlier the issue of moving 
responsibility to the States for accreditation; and, again, I 
urge you not to do that. My members will tell you independence 
of the private sector would be greatly at risk if you did that. 
From my own experience in being in the legislature and now 
serving as President of an institution for 22 years, I do not 
think it would be wise.
    There was a good example in Virginia where we upgraded the 
laws in Virginia to attempt to stop degree mills from 
operating. In the process, a simple little piece of legislation 
drew five institutions that had been in the Commonwealth for a 
long time and were well established into a new maze of 
regulations and fees that it required to undue this past 
legislative session. Unfortunately, my institution was one of 
those, and I was delighted that I had the legislative 
experience to work to help bring about the change that was 
necessary.
    Well, this bill also deals with transparency issues; and I 
want to emphasize that I think transparency is extremely 
important. But we need to understand that transparency and 
accreditation should be primarily for status of institutions, 
for penalties, for infractions that may occur. It should not 
destroy the consultative work that is done on peer 
accreditation because it is almost half or more the value; and 
when you publicize that information, you publicize members of 
the Committees. All you are doing is reducing the willingness 
of people to serve and the willingness of people to be truly 
helpful in the accreditation proceedings.
    In summary, I would urge you to believe that peer 
accreditation which is relatively free of government 
involvement is essential to democracy and the concepts of 
freedom that we all enjoy. It is a unique American institution. 
It is very fragile, and it can be destroyed very easily if we 
are not careful.
    I would urge you to believe that peer accreditation has 
some challenges, but members like myself and others who 
voluntarily participate in that process believe that we can 
make it better, with your encouragement, with dialog. As 
president of one of these institutions, I will invite you to 
spend a few days with me as I work to satisfy all of the many 
constituencies as have been mentioned here and others as we 
make decisions about cost, quality and a number of other 
things. It would be a joy to have you sit with me and 
experience the kind of commitment that is there on the part of 
my colleagues and others, and especially in the independent 
sector that I am speaking for, for the work they do to keep the 
system of higher education in America strong.
    We are committed to cooperating with you on this bill. We 
don't want to be protagonists. We don't want to stand in the 
way of good change. But when we think you are wrong, Mr. 
Chairman, we think we need to say we think you are wrong and 
still respect you for your long-standing commitment to higher 
education and also the affirmations that you gave in your 
opening statement that I think are important.
    Thank you and appreciate the opportunity to speak to the 
Committee today.
    Chairman McKeon. Thank you.
    [The prepared statement of Dr. Davis follows:]

  Statement of Dr. James A. Davis, President, Shenandoah University, 
                          Winchester, Virginia

    Chairman McKeon, Ranking Member Kildee, and members of the 
subcommittee, I appreciate having the opportunity to appear today to 
discuss accreditation and its role in U.S. higher education. My name is 
Jim Davis, and I am president of Shenandoah University. I have been 
involved with accreditation for approximately the past 28 years and 
have served in a variety of capacities with the Southern Association of 
Colleges and Schools Commission on Colleges.
    I am testifying on behalf of the National Association of 
Independent Colleges and Universities (NAICU), which represents nearly 
1,000 private, non-profit institutions of higher education. NAICU 
membership reflects the diversity of private, non-profit higher 
education in the United States--including traditional liberal arts 
colleges, major research universities, church- and faith-related 
institutions, historically black colleges and universities, women's 
colleges, performing and visual arts institutions, two-year colleges, 
and schools of law, medicine, engineering, business, and other 
professions.
Accreditation in the United States
    The accreditation process is a private one that long pre-dates the 
enactment of the Higher Education Act. It was devised as a means by 
which institutions could engage in peer review and self study in order 
to maintain and expand the quality of their educational offerings.
    Accreditation is a uniquely American institution. In most other 
nations, quality reviews are generally conducted by centralized 
governmental authorities. The tradition of institutional autonomy in 
the United States called for a different approach. It is an approach 
that has proven highly successful over the years. It has allowed a 
diversity of institutions to flourish and has helped make American 
higher education the standard for the world.
    The private-public partnership between the accreditation process 
and the federal government began over 50 years ago with the enactment 
of the ``Veterans' Readjustment Assistance Act of 1952'' (commonly 
known as the GI Bill). That act required the U.S. Commissioner of 
Education to publish a list of accrediting agencies and associations 
that he regarded as reliable authorities as to the quality of training 
offered by an educational institution. This requirement was 
subsequently restated in other federal education laws, including the 
Higher Education Act of 1965.
    Federal reliance on accreditation in determining the quality of 
institutional offerings was further formalized in the 1992 amendments 
to the Higher Education Act as part of a broader effort to articulate 
the respective roles of States (consumer protection), accreditors 
(quality), and the Department of Education (program integrity and 
administrative capacity) in the so-called ``triad.'' This basic 
division of responsibility remains sound in concept but requires 
careful delineation of roles to operate successfully. The failure, for 
example, to limit the scope of State Postsecondary Review Entities 
(SPREs) to consumer protection activities led to the repeal of this 
portion of the 1992 amendments.
    Clearly defining roles and maintaining an appropriate balance among 
the entities that have a role in maintaining public confidence in 
higher education is a challenging task, but it can be accomplished. And 
it important to do so not only to preserve the autonomy of higher 
education but also to permit accreditors and others to focus on what 
they do best.
Accreditation Provisions of H.R. 4283
    The accreditation provisions of the ``College Access and 
Opportunity Act'' (H.R. 4283) cover a broad range of topics, including 
consumer information disclosures, distance education, governance, 
student learning outcomes, student complaints, and the transfer of 
credit. In addition, the measure permits states to become accreditors.
    Many of these provisions may well lead to unintended consequences. 
Some provisions turn accreditation agencies into surrogate federal 
enforcers, while others ask accreditors to assume responsibilities that 
are far removed from assessing educational quality. Taken as a whole, 
these proposals raise substantial concerns that the purpose and 
effectiveness of accreditation will be weakened. Read simply, this bill 
would interfere with the ability of accreditors to do their jobs well.
    Our mutual goal is to assure that the quality of higher education 
in the United States remains high and that the public can have 
confidence in our institutions. I would like to highlight several of 
the provisions that I believe will have unintended consequences.
1. States as accreditors.
    Permitting states to become accreditors would set us on the path 
towards the kinds of problems that Congress rightly chose to address by 
repealing SPRE. There is a division of responsibility among States, the 
federal government, and accreditors that should be maintained. 
Otherwise, we will end up with inconsistent and uncoordinated 
regulation. Moreover, NAICU member institutions are, by their very 
nature as private, non-profit institutions, not under the direct 
control of State governments. They should not be placed indirectly 
under such control through the accreditation process. If that occurs, 
we could easily start to look and feel like state institutions--losing 
the overall diversity of American higher education.
2. Consumer information/College Consumer Profile.
    The bill requires accreditors to assure that institutions develop 
and make public a ``College Consumer Profile.'' Requiring accreditation 
agencies to enforce data collection efforts by the Secretary is 
inappropriate and unnecessary. The Secretary has all the authority he 
needs to collect data from institutions. Requiring back-up enforcement 
from accreditors only serves to distract them from their primary 
purpose which is to assure the quality of education institutions.
    I share the interest of members of the subcommittee in seeing that 
students and parents have access to the information they want and need 
about an institution of higher education. Institutions currently 
provide substantial amounts of data to the Department of Education. A 
concerted effort to determine which of this data is of value to 
consumers and how to provide it in a user-friendly manner would be 
useful. As currently devised, however, the proposed College Consumer 
Profile does not accomplish this goal.
3. Consumer information/Public disclosure.
    General disclosures of accreditation findings will substantially 
change the nature of the accreditation process and undermine the 
frankness and candor that help make the process successful. Inevitably, 
negative information from a review will be reported out of context a 
prospect that can have particularly devastating consequences for small 
institutions.
    Again, I believe the challenge here is determining what it is that 
students and parents want to know. Much of the information provided in 
accreditation reports is mainly consultative rather than directly 
related to the standards or requirements. I am not convinced that many 
students and parents would actually read a summary of accreditation 
findings. On balance, this proposal would do little to advance public 
understanding of accreditation and its finding while having the 
potential to damage the process.
    To the extent that the committee wishes to increase public 
understanding of the accreditation process, I stand ready to help find 
ways to increase transparency in ways that will not undercut the frank 
exchanges that are critical to continued improvement.
Governance.
    The bill would require accreditors to assess an institution's 
``governance capacity.'' Most accreditors already review governance and 
independence of boards that oversee the operations of institutions. 
Including a standard in legislation only creates complications in 
definitions, duplication of effort with current efforts by the Internal 
Revenue Service, and the potential for inappropriate interference in 
areas such as the board composition of religiously affiliated 
institutions.
4. Transfer of Credit.
    The bill sets up accreditation as a means of enforcing proposed new 
transfer-of-credit requirements. Congressional involvement in transfer 
of credit issues is unwise because these decisions go to the heart of 
institutional integrity and ability to shape educational programs. This 
issue is so complicated and includes so many variables that it would be 
impossible to legislate appropriately.
    The stated purpose of these provisions is to assure that transfer 
credits are not rejected solely on the basis of the type of 
accreditation of the sending institution. However, the most 
controversial aspects of the actual language of H.R. 4283 goes well 
beyond what is necessary to achieve that purpose causing even greater 
concern about the pitfalls of legislating in this area.
    For example, the bill also sets the standards upon which transfer 
decisions should be made and requires disclosure on an annual and 3-
year rolling average the percentage of credits accepted in transfer and 
fully counted toward degree/certificate completion requirements, 
disaggregated by four categories: nationally accredited; regionally 
accredited in the same State; regionally accredited in the same region; 
and regionally accredited in a different region.
5. Student Learning Outcomes.
    The bill expands the portion of the law dealing with student 
achievement standards that must be assessed by an accreditor and 
provides that accreditors evaluate the substance of the information 
disclosed to students regarding an institution's learning objectives 
for its academic programs.
    Current law provisions are adequate to deal with review of student 
learning. Accrediting agencies are placing great emphasis on such 
reviews now. Linking this review with a new requirement that 
institutions develop ``desired learning outcomes'' for each of their 
academic programs could lead to standardized measurement of those 
outcomes. Learning outcomes are the basis of the formation of 
curriculum, which is best left to faculty and institutions to shape.
6. Distance Education.
    The bill includes additional requirements an accreditor must meet 
in order to include evaluation of distance education within its scope 
of recognition and requires that accreditors monitor the growth of 
distance education programs.
    Already 90% of institutions of higher education offer some form of 
distance education for their regular students or for those considered 
non-traditional. Some refinement of the distance education provisions 
would help assure that a separate accreditation process for distance 
offerings is not established.
    In addition, it is certainly important to monitor the growth of 
distance education programs. At the same time, protecting student aid 
programs from fraud and abuse is the direct responsibility of the 
federal government. This responsibility should not be relegated to the 
accreditation process, which is neither an authority on Title IV 
administration nor regular enough to monitor excessive growth in 
student aid funds. Monitoring the growth of distance education programs 
should be the responsibility of the Department of Education not of 
accreditors.
Conclusion
    I contend that peer accreditation which is relatively free of 
government involvement is essential to democracy and the concepts of 
freedom we enjoy today. It is a unique American institution and 
Congress should not destroy it with creeping legislation that is well 
intended but directed toward the wrong entity. Peer accreditation has 
some challenges but it is still considered to be the best system in the 
world that has produced the best higher education system in the world.
                                 ______
                                 
    Chairman McKeon. Dr. Keiser.

   STATEMENT OF DR. ARTHUR KEISER, IMMEDIATE PAST PRESIDENT, 
    ACCREDITING COMMISSION OF CAREER SCHOOLS AND COLLEGE OF 
              TECHNOLOGY, FT. LAUDERDALE, FLORIDA

    Dr. Keiser. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to testify about accreditation 
and its ability to ensure institutional accountability and 
quality for students and their parents.
    I am Arthur Keiser, Chancellor of the Keiser Collegiate 
System, which includes Keiser College, Keiser Career College 
and Everglades University. I am testifying here on behalf of 
the Accrediting Commission of Colleges and Schools of 
Technology, a private, nonprofit national accrediting agency 
recognized by the Secretary of Education since 1967. We 
currently serve over 800 institutions with 400,000 students.
    I will discuss four topics today: one, how greater 
transparency in the accreditation process serves students and 
the public; two, the role that accreditors can play in 
improving institutional accountability; three, accreditation's 
role in addressing problems raised by arbitrary denial of 
transfer of credit; and, four, the enhanced role of 
accreditation in assessing distance education.
    In focusing on increasing transparency in accreditation, 
the Commission believes that H.R. 4283's provision strikes the 
appropriate balance between ensuring accountability and 
maintaining the confidentiality and integrity of the 
accrediting process. Our Commission supports these disclosure 
requirements.
    The bill's provision also requires public disclosure of 
accreditation team members, a description of an accrediting 
agency's processes for selecting and training these individuals 
as well as disclosure for the agency's code of content. We 
understand the intent but recommend that the bill require the 
disclosure of an updated list on an annual basis without 
disclosing the makeup of each specific team site.
    In the area of accountability, ACCSCT believes that the 
bill's provision to create a College Consumer Profile takes an 
important step forward in providing more information about 
schools to students that attend or would like to attend 
particular colleges. In my capacity as Chancellor of Keiser 
Collegiate System, I do not believe these provisions require 
institutions or accreditors to develop or disclose a 
significant amount of new data.
    Public disclosure of student achievement will also improve 
institutional accountability. ACCSCT believes it is 
increasingly important that institutions participating in title 
IV programs demonstrate the benefits that students will receive 
from institutions' educational programs. In order to accomplish 
this goal, ACCSCT believes that Congress should place a greater 
emphasis on the use of meaningful performance measures that 
affect an institution's participation in the student aid 
program, including placement, completion and retention.
    ACCSCT believes that House Resolution 4283's provision to 
amend the student achievement standards required for 
accrediting agencies reflect the consumers' interest in 
outcomes, retention, completion and job placement. The bill's 
provision accomplishes this in a manner that is differential to 
the ability of institutions and accrediting bodies to determine 
the appropriate measures of students' academic achievement 
based on an institution's mission and the learning objectives 
of individual programs.
    ACCSCT shares the desire of the Chairman and the Committee 
to eliminate the unnecessary burdens on students on the Federal 
treasury. One important way in which to do this is to improve 
the student's ability to transfer credits. In many cases, 
students that rely on title IV student loans are forced to 
retake courses for which credit is denied.
    The standards for recognition by the Secretary are 
identical for both national and regional accrediting agencies, 
yet barriers to the transfer of credit are particularly 
prevalent when students attempt to transfer credits from 
national credit institutions to regionally accredited 
institutions.
    I am personally familiar with some of the obstacles that my 
students have faced. I have included one student's story in the 
written testimony and others as clear examples of the arbitrary 
transfer process.
    The Keiser Collegiate System is comprised of both 
regionally and nationally accredited institutions. Although 
there are differences in processes, expectations and standards, 
I can attest from experience the national accrediting agencies 
are as effective and comprehensive in reviewing institutional 
quality and integrity as regional accrediting agencies.
    During the last decade, the development of distance 
education has provided another increasingly important means to 
achieve a postsecondary education. The growth of on-line 
education is particularly important to working adults and the 
more diverse circumstances that students face.
    The College Access and Opportunity Act takes important 
steps by removing the 50 percent rules. In doing so, the bill 
relies on accreditation to play an enhanced role in ensuring 
quality. Whether the accrediting agencies choose to rely on 
separate standards or discrete standards to review distance 
education, we believe that legislation should focus on the 
accrediting agency's capabilities to review these institutions 
or programs with as much rigor as they do campused-based 
institutions, while also recognizing the special attributes of 
the campuses.
    I thank you for this opportunity to testify before the 
Subcommittee.
    Chairman McKeon. Thank you.
    [The prepared statement of Dr. Keiser follows:]

 Statement of Dr. Arthur Keiser, Immediate Past Chairman, Accrediting 
     Commission of Career Schools and Colleges of Technology, Ft. 
                          Lauderdale, Florida

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify about accreditation and its ability to ensure 
institutional accountability and quality for students and their 
parents. I am Arthur Keiser, Chancellor of the Keiser Collegiate 
System, which includes Keiser College, Keiser Career College, and 
Everglades University. The Keiser Collegiate System comprises 16 
campuses in the State of Florida with over 7,000 students. Sixteen 
accrediting agencies review these institutions, including both national 
and regional agencies, as well as those that provide institutional and 
programmatic review. I am testifying here today on behalf of the 
Accrediting Commission of Career Schools and Colleges of Technology 
(ACCSCT or the Commission). I am completing my term as an ACCSCT 
Commissioner in July and I just completed a two-year term as Chairman.
    ACCSCT is a private, non-profit independent accrediting agency 
recognized by the Secretary of Education since 1967. It is a national 
agency that accredits approximately 800 institutions with over 400,000 
students throughout the country. ACCSCT-accredited institutions are 
both non-profit and for-profit, degree and non-degree granting. These 
institutions prepare students for trade and technical careers in many 
areas including computer programming, commercial art, culinary arts and 
medical technology, among others.
    ACCSCT applauds you and the Subcommittee for holding this hearing 
today to ask the important question of how accreditation performs in 
providing accountability and quality control. Accreditation predates 
the Higher Education Act and has always been voluntary in nature. 
However, since the enactment of the Higher Education Act in 1965 
accrediting bodies have held an important role in the regulatory 
process that determines whether institutions participate in Title IV. 
Without accreditation by an agency recognized by the Secretary, an 
institution may not access Title IV funds. For those institutions that 
participate, accrediting agencies have the important responsibility to 
ensure the quality and integrity of their programs. For those 
accrediting agencies that seek recognition from the Secretary, the Act 
currently contains a number of obligations that must be met with regard 
to accreditation review and operating procedures. ACCSCT believes that 
the accreditation community provides quality assurance and 
accountability for students and their parents. ACCSCT also shares your 
interest in strengthening that current role through passage of H.R. 
4283's provisions on accreditation.
    In the testimony that follows, I would like to provide you with 
background regarding ACCSCT's accreditation mission and process and 
then share the Commission's view on what particular goals might be 
achieved through the reauthorization process to enhance accreditation's 
consumer protection role. Specifically, I will discuss four topics: 1. 
how greater transparency in the accreditation process serves students 
and the public; 2. the role that accreditors can play in improving 
institutional accountability; 3. accreditation's role in addressing 
problems raised by the arbitrary denial of transfers of credit; and 4. 
the enhanced role of accreditation in assessing distance education.
I. Overview of ACCSCT's Accreditation Practices
    The Commission has thirteen members: six are public members 
representing government, industry or the higher education community, 
and seven members represent the private career school sector. School 
members are elected by ACCSCT institutions, and public members are 
selected by the Commission after being recommended by ACCSCT's 
nominating committee. Each commissioner serves for a maximum of four 
years.
    The Commission is well suited to provide its perspective on whether 
accreditation, and ACCSCT specifically, assures students and parents 
institutional accountability and quality. We believe that the 
Commission's focus in these areas provides protection for students' 
investments in their educations. The Commission's mission is to 
accredit career schools and colleges in the United States, its 
territories and abroad. Its mission has two primary goals: to assure 
students and the general public of the quality of education provided by 
institutions and their programs, and to assist institutions in 
continuously improving to better serve students.
    The Commission has adopted detailed standards which ACCSCT-
accredited institutions must meet in order to maintain their 
accreditation status. The standards define a model of accreditation 
that assesses the effectiveness of an institution by examining faculty, 
admission practices, facilities and equipment, financial and 
administrative capability and student services, as well as the 
performance outcomes of students, such as favorable completion and job 
placement rates, and pass rates on state licensing or national 
certification examinations. These standards reflect a concern for 
consumer protection and student satisfaction. For example, the 
Commission requires its institutions to disclose to prospective 
students before enrollment information regarding tuition, incidental 
costs and refund policies. The Commission also requires institutions to 
provide students copies of the complete enrollment agreement, including 
both the student's and institution's obligations. A copy of the 
Commission's standards is included with this testimony.
    Through the self-evaluation process, an institution has the 
opportunity to assess its programs against ACCSCT's established 
standards and to identify areas of strength and those that need 
improvement. Once an institution completes its self-evaluation report, 
a team visit is conducted by ACCSCT to verify the information submitted 
in the report and to determine the institution's adherence to its 
stated objectives and compliance with the Commission's standards of 
accreditation. These visiting teams generally include a team leader to 
review an institution's administration, student services and financial 
position; an occupation specialist to evaluate the training and 
equipment for each discipline in which the institution provides 
instruction; and an education specialist from an accredited two- or 
four-year college or university for review of faculty, libraries and 
instruction. All teams include an ACCSCT staff member as well.
    Once a team visit is complete, the team prepares a written report 
to which the institution has the opportunity to respond. The Commission 
then reviews these reports and comments before a decision on 
accreditation is made. In addition to these materials, the Commission 
may seek additional information from state and federal agencies, other 
accrediting agencies and the public. The institution may respond to 
these third party comments.
    ACCSCT meets at least quarterly to conduct business related to 
school actions. The Commission can grant accreditation to an 
institution for up to five years. Shorter accreditation periods are 
granted in instances where the Commission sees the need to closely 
monitor an institution's compliance. The Commission may take the 
following actions on an institution: accredit/reaccredit (with or 
without stipulation); defer action pending additional information; 
order the institution to Show Cause as to why accreditation should not 
be revoked; place an institution on probation; deny or fail to grant 
accreditation; and remove an institution from accreditation.
    We strongly believe that the Commission's standards and procedures 
provide the public with the assurance of quality and accountability. 
Can accrediting agencies do more to improve in this area? The 
Commission believes they can and early in the Reauthorization process, 
the Commission focused its attention on how the Act might be amended to 
provide more information to students and to the public regarding the 
quality of an institution's programs, while at the same time preserving 
the integrity of the accreditation process.
II. Improving Transparency in the Accreditation Process
    The Commission believes H.R. 4283's provisions strike the 
appropriate balance between assuring accountability and maintaining the 
confidentiality and integrity of the accreditation process. The bill 
would require accrediting agencies to provide both the Department and 
the public a summary of actions taken on an institution. The Commission 
supports the disclosure of information relating to final actions. In 
fact, at a minimum, accrediting agencies are already required to notify 
the Department of actions taken. In the case of a final decision to 
deny, terminate or suspend, accreditation agencies currently are 
required to provide a notice and summary of such actions to the 
Department. Such disclosures must be made available to the public upon 
request. The most significant change under the bill is with regard to 
the public disclosure of these summaries. The expansion of information 
required to be disclosed should not represent a dramatic change for 
accreditors or the institutions. These provisions simply enhance and 
clarify many of the current provisions of the Act.
    The bill's provisions also require public disclosure of 
accreditation team members, a description of accrediting agencies' 
processes for selecting and training these individuals, as well as 
disclosure of the accreditor's code of conduct. The Commission 
understands that the intent of these provisions is to assure the public 
that accrediting agencies and their representatives are qualified to 
review their institutions and ensure quality. With the significant 
number of evaluators used by all of the recognized accrediting 
agencies, we recommend that the bill require the disclosure of an 
updated list on an annual basis without disclosing the make-up of each 
specific site team.
III. Improving Institutional Accountability using Accreditation
    ACCSCT has worked to examine ways in which both institutions and 
accrediting agencies can provide the student-consumer more information 
about the schools they attend or would like to attend. We believe that 
the bill's provisions to create a ``college consumer profile'' take an 
important step forward in this area. In my capacity as Chancellor to 
the Keiser Collegiate System, I do not believe these provisions require 
institutions or accreditors to develop or disclose a significant amount 
of new data. Much of the information to be disclosed relates directly 
to the criteria already required to be reviewed under the Act's 
provisions on accrediting agency standards. What is important and new 
about the development of the profile is that the information will be 
provided and disclosed to the public in a consistent manner by a single 
entity, the Department. Under the bill, accrediting agencies would have 
the role of ensuring that institutions comply with these requirements.
    Public disclosure of student achievement would also improve 
institutional accountability. As recently demonstrated by the Education 
Trust, graduation rates are disturbingly low at many American 
institutions. ACCSCT believes it is increasingly important that 
institutions participating in Title IV programs demonstrate the 
benefits that students will receive from institutions' educational 
programs. It is important for institutions to be more accountable with 
regard both to student completion rates and other appropriate outcomes 
that demonstrate student achievement and learning. In order to 
accomplish this goal, ACCSCT believes that Congress, through 
Reauthorization, should place a greater emphasis on the use of 
meaningful performance measures to affect institutions' participation 
in student aid programs, including placement, completion and retention 
rates.
    ACCSCT, like other national accrediting agencies, already assesses 
student outcomes and each accredited institution's performance in this 
regard. Our standards require reasonable and acceptable levels of 
completion, placement and pass rates on licensure and certification 
examinations. We have collected extensive hard data on these and other 
measures of institutional performance. The statutorily mandated 
recognition criteria for accrediting agencies have included assessment 
of institutions' student achievement since 1992. In 1998, Congress 
increased the emphasis on accrediting agencies' assessment of student 
achievement by placing it as the first criterion to be considered in 
recognition reviews of accrediting agencies. ACCSCT has developed an 
equation in response that requires institutions to calculate completion 
and job-placement rates and to maintain rates that are within one 
standard deviation of the average for comparable programs or schools. 
ACCSCT's ability to collect important completion-rate and job-placement 
data on its institutions provides its institutions with clear bright-
line goals to meet. In 2002, the average completion rate for all 
programs at ACCSCT-accredited institutions was 68.6%; the overall job 
placement rate as 84.3%.
    A recent article in the New York Times highlighted that a 
significant majority of all students seek a higher education in order 
to improve their career opportunities. According to a survey conducted 
by the Center for Survey Research and Analysis at the University of 
Connecticut, 64 percent of students surveyed indicated that the primary 
purpose of a college education is to prepare students for specific 
careers.\1\ The article provides an overview of efforts made by 
traditional institutions to accommodate this purpose.
---------------------------------------------------------------------------
    \1\ New Course for Liberal Arts: Intro to Job Market, The New York 
Times, Saturday, June 19, 2004, A1, A15.
---------------------------------------------------------------------------
    H.R. 4283's provision to amend the student achievement standards 
required for accrediting agencies reflects the consumer interest in 
outcomes, retention, completion and job placement. The bill's provision 
accomplishes this in a manner that is deferential to the ability of 
institutions and accrediting bodies to determine the appropriate 
measures of student academic achievement based on an institution's 
mission and the learning objectives of individual programs. As 
mentioned above, ACCSCT and many other national accrediting agencies 
have required a review of such data for a number of years and believe 
that all institutions, and their accrediting agencies, should be 
capable of collecting and reviewing such data as a way of strengthening 
programs and holding them accountable for meeting their objectives, as 
they define them.
IV. Addressing the Denial of Credit Transfers based on Accreditation
    ACCSCT shares the desire of the Chairman and many on the Committee 
to eliminate unnecessary burdens on students and on the Federal 
Treasury. One important way in which to do this is to improve students' 
ability to transfer credits. The ability of students to transfer credit 
between institutions is a critical component to ensuring the efficiency 
and effectiveness of Title IV funding.
    According to one study performed by the Institute for Higher 
Education Policy, over 50 percent of 1996 baccalaureate graduates 
attended at least two colleges and universities. With the increased 
number of adult students and the increased desire and need to continue 
or expand one's education, this trend is expected to continue. Barriers 
to the transfer of credit seriously affect the cost, time and the 
student initiative needed to complete a higher education program. In 
many cases, students that rely on Title IV student loans are forced to 
retake courses for which credit is denied. This situation puts an 
unnecessary financial strain on both individual students and on our 
Title IV student aid system. At a time when the postsecondary student 
population is increasing, unduly restrictive transfer policies burden 
the already stretched capacity of the postsecondary education system.
    Barriers to the transfer of credit are particularly prevalent when 
students attempt to transfer credits from nationally accredited 
institutions to regionally accredited institutions. The study described 
above reviewed the established Transfer Credit Practices directory 
(TCP), which surveys the transfer policies of major receiving 
institutions throughout the U.S., and found that the vast majority of 
regionally accredited institutions are included in the directory as 
acceptable institutions of transfer, while most nationally accredited 
institutions are not. The standards for recognition by the Secretary, 
however, are identical for both national and regional accrediting 
agencies. Thus, national accreditation is not provided the same status 
as regional accreditation for transfer purposes despite the equivalency 
of their quality assessment standards for the purposes of recognition 
by the Department of Education.
    I am personally familiar with the obstacles that some of my 
institutions' students have faced. One student's story demonstrates the 
problem. This student is a graduate of a bachelor's degree program at 
one of the nationally-accredited Keiser schools, Everglades University. 
Early last year, he sought admission to Nova Southeastern University, a 
regionally-accredited institution, to receive a master's degree in 
computer information systems. His admission was denied because he did 
not receive his bachelor's degree from a regionally-accredited 
institution. This denial was made in spite of Everglades' membership in 
Florida's common course numbering system.\2\ NSU recommended to the 
student that he retake two years' worth of courses in order to receive 
a second bachelor's degree from NSU before advancing to the master's 
program. Many other students attending ACCSCT-accredited institutions 
have faced similar obstacles and we have provided specific examples to 
the Committee with this testimony.
---------------------------------------------------------------------------
    \2\ To be approved by the common course numbering system, the State 
of Florida's Department of Education reviews the course content, 
faculty credentials and outcomes of the applicant institution for 
overall comparability. Approved courses under the system must be 
accepted by all colleges and universities participating in the Florida 
Statewide Course Numbering System.
---------------------------------------------------------------------------
    Receiving institutions should not be permitted to deny the transfer 
of credits based on the transferring institution's type of 
accreditation. The Keiser Collegiate System is comprised of both 
regionally and nationally accredited institutions. Although they differ 
in processes, expectations and standards, I can attest from experience 
that the national accrediting agencies are as effective and 
comprehensive in reviewing institutional quality and integrity as the 
regional accrediting agencies, if not more so.
    The Commission supports H.R. 4283's provisions to alleviate these 
transfer of credit concerns. We believe that the bill strikes an 
appropriate and needed balance between the federal government's 
responsibility to protect against waste and undue burdens tied to Title 
IV funds with the need to protect the autonomy of institutions to make 
appropriate transfer decisions based on course equivalency and student 
proficiency. The bill accomplishes this by requiring that both 
institutions and accrediting agencies adopt policies prohibiting the 
denial of the transfer of credits based solely on accreditation, if the 
institution from which the student is transferring is accredited by an 
agency recognized by the Secretary. The bill explicitly protects the 
rights of institutions to consider course equivalency and student 
proficiency and explicitly states that the Department shall not 
interpret these provisions to allow regulation in the area of 
institutional curricula. Finally, the Commission believes the bill's 
provisions to require that public disclosure of institutional transfer 
practices by both institutions and the accrediting agencies will assist 
in reducing arbitrary transfer decisions and will give students 
critical information as they plan for higher education.
V. Reliance on Accreditation to Ensure Quality in Distance Education
    During the last decade, the development of distance education has 
provided an increasingly important means to achieve a postsecondary 
education. The growth of online education is particularly important to 
working adults and the more diverse circumstances of students. Today, 
43% percent of the undergraduate population is over the age of 25. Many 
of these adults are attempting to work and raise families while earning 
their degrees. An online education provides opportunities to many 
students who otherwise would not be able to earn a degree. Over 250,000 
students have enrolled for an online degree to date, and enrollment is 
expected to reach one million by 2010.
    In expanding access to higher education, ACCSCT has emphasized that 
one area in which accreditation could play an enhanced role in ensuring 
quality is in removal of the 50 percent rules, which currently serves 
as a barrier to distance education. Everglades University is a small 
institution offering both campus-based programs and distance education 
programs. Despite our success in distance education and a separate 
rigorous and successful accreditation review process by ACCSCT of our 
distance education programs, Everglades is limited by the 50 percent 
rules in its ability to expand in this area.
    The College Access & Opportunity Act takes important steps by 
removing the 50 percent rules barrier. In doing so, the bill requires 
accrediting agencies to have, within the scope of their recognition 
from the Secretary, the evaluation of distance education programs. 
ACCSCT strongly supports the bill's reliance on accrediting agencies' 
ability to review and monitor the quality of distance education. ACCSCT 
has already supplemented its own standards of accreditation to include 
specific provisions and principles for distance education review and is 
currently recognized by the Department as having distance education 
within its scope of recognition. Whether accrediting agencies choose to 
rely on separate standards or existing standards to review distance 
education, we believe that the legislation should focus on the 
accrediting agencies' capabilities to review these institutions or 
programs with as much rigor as they do campus-based institutions, while 
also recognizing their special attributes.
VI. Conclusion
    In conclusion, the Commission strongly believes that accreditation, 
and in particular national accreditation, provides a strong assurance 
of quality for higher education in the United States. The Commission 
also believes that Reauthorization of the Higher Education Act presents 
an opportunity for Congress and the higher education community to 
strengthen accreditation and to increase public disclosure of 
information that is so important in determining the quality of our 
higher education institutions. I thank you again for this opportunity 
to testify before the Subcommittee.
                                 ______
                                 
    Chairman McKeon. Dr. Crow.

   STATEMENT OF DR. STEVEN CROW, EXECUTIVE DIRECTOR, HIGHER 
LEARNING COMMISSION, NORTH CENTRAL ASSOCIATION OF COLLEGES AND 
                   SCHOOLS, CHICAGO, ILLINOIS

    Dr. Crow. Mr. Chairman and members of the Subcommittee, you 
have already heard the scope of my enterprise accrediting 
agency with about a thousand institutions. I am here 
representing also CRAC, the Council of Regional Accrediting 
Commissions. Together, the regionals accredit over 3,000 
colleges and universities, with a total enrollment of 
approximately 16.7 million students. I appreciate the 
opportunity to be here today.
    I also want to express the appreciation of my colleagues 
and myself for over the past few months we have had good access 
to many of you as representatives and to your staff to discuss 
accreditation and reauthorization.
    First, we are pleased that accreditation will continue to 
play a key role in providing quality assurance useful to the 
Federal Government. While honoring the distinctive and multiple 
missions of U.S. Institutions of higher education so essential 
for access for students, we will show our responsiveness to 
changing expectations for higher education and the public 
policies reflecting those changes.
    H.R. 4283 proposes several new responsibilities for 
accreditation, the major ones of which I will address. We have 
recommended specific modifications of language to clarify the 
exact scope of some of the new responsibilities. Understanding 
that these modifications will be made, we have registered our 
support for the role of accreditation as stated in specific 
provisions of section H of H.R. 4283.
    On agency accountability for student learning, we believe 
that the approach in the bill is constructive to the extent 
that it first continues the expectation that standards of 
federally recognized agencies assure that we pay attention to 
how institutions define and assess student learning. Moreover, 
it appears to recognize the breadth of measures appropriate to 
the diverse types of institutions that we accredit.
    Second, it requires institutions receiving title IV monies 
to provide public information about educational performance, 
most of which we already require in our standards. We expect 
that institutions will be able to provide a report fitted to 
their educational objectives and drawing on the variety of data 
they use to determine their own effectiveness.
    And, third, it establishes reasonable expectations for 
accrediting agencies to vouch for the effective distribution of 
this information and to consider that information as part of 
their on-campus review.
    On agency accountability, as we expected, the bill includes 
provisions for agency accountability.
    First, we are to provide the Secretary with new information 
about our site visitors. Much of it we have it in electronic 
format, so we can provide it easily. We understand the 
Committee has accepted our proposal that instead of providing 
the Secretary annually with a list of all the site visitors 
within our data bases, we would provide more useful information 
by posting to our Web sites the names of evaluators that were 
used in the previous year.
    Public disclosure of accrediting actions and the findings 
related to those actions is the largest single new 
responsibility for accrediting agencies. Accreditors have 
always disclosed actions, and several also give information 
about subsequent required reports or visits. But disclosure of 
information specifically useful to students in particular and 
the public more generally will be a challenge. At this point, 
the regional commissions have not agreed on a consistent 
template that we might use, but it is one of our highest 
priorities. We will need time to discuss among our ourselves 
and our members the components of a program of disclosure that 
will be accurate and fair.
    On student mobility and transfer of credit, my colleagues 
and I support how the bill reinforces the responsibility of 
accreditors in encouraging greater transparency of transfer to 
the extent that it affirms that accreditors will continue to 
assure that institutions have appropriate transfer policies 
which now will also comply with Federal requirements about 
those policies. It affirms that the policies of an accrediting 
agency would not limit acceptable practices solely on the basis 
of what agency provides accreditation, and it sets a reasonable 
expectation for an agency to have procedures for which it 
reviews transfer policies during each accreditation review.
    Several higher education organizations have expressed 
concerns about the significant new recordkeeping and reporting 
requirements in H.R. 4283, with a special note on those related 
to transfer. At a time when students in their academic careers 
move credits among institutions several times, we suggest that 
the Committee and staff would be well served to hear from 
institutions and those organizations their best estimates of 
the time and expense that such new recordkeeping might entail.
    And, last, on distance education and eLearning, concern 
about eLearning seems to be directly related to the end of the 
50/50 Rule. Very few institutions accredited by regional 
agencies are disqualified by the 50/50 Rule, and almost all of 
those that have are participating through the Department's 
Demonstration Project. We do not believe that the price for the 
abolition of the 50/50 Rule should be increased scrutiny of 
eLearning provided by all of our member institutions. Moreover, 
the quality of institutions accredited by us and now 
participating successfully in the distance demonstration 
project is evidence that even in the new emerging group of 
virtual institutions we can successfully recognize the quality 
the Federal Government should expect of us.
    We, therefore, support the approach of the bill to distance 
education to the extent that it recognizes that distance 
learning should be judged by the same standards as all 
learning; and we think the extra obligations asked of us about 
distance education are ones that we are willing to accept.
    Mr. Chairman, thank you very much for the opportunity to 
testify today. All regional agencies would probably prefer that 
the 1998 section H actually remain unchanged, but most of us 
have engaged in discussions that help us understand why it may 
be changed. Where it deals directly with accreditation, H.R. 
4283 reflects that our recommendations have been heard and in 
many respects honored.
    Thank you.
    Chairman McKeon. Thank you very much.
    [The prepared statement of Dr. Crow follows:]

 Statement of Dr. Steven D. Crow, Executive Director, Higher Learning 
Commission, North Central Association of Colleges and Schools, Chicago, 
                                Illinois

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to be here today to discuss the potential impact of H.R. 
4283, The College Access & Opportunity Act, on higher education 
accreditation. On behalf of my Executive Director colleagues, and 
myself I also want to express appreciation for the numerous 
opportunities we had over the past few months to meet with 
Representatives and their staffs on both sides of the aisle. Because we 
know that time is a precious commodity on the Hill, we are particularly 
grateful that so many made time to visit with us when we traveled to 
Washington, D.C.
    I head The Higher Learning Commission of the North Central 
Association of Colleges and Schools. Recognized by both the United 
States Department of Education and the Council on Higher Education 
Accreditation, the Commission has a membership of 985 colleges and 
universities located in the 19 states of the north central region. We 
also are proud to count in that membership almost two dozen tribal 
colleges whose authority comes from sovereign nations located within 
those states. My Commission has accredited colleges and universities 
since 1913. I also serve as the vice-chair of the Council of Regional 
Accrediting Commissions (C-RAC). The seven regional accrediting 
associations accredit 3,022 institutions enrolling approximately 
16,619,890 students.
    The United States has a system for quality assurance for higher 
education unique in its ability to support the rich diversity of higher 
education institutions so vital to the strength and capacity of higher 
education in this nation. Regional accrediting agencies have assured 
the quality of higher education in the United States for over 100 
years. For the past 50 years these agencies, originally established to 
provide self-regulation and shared assistance in stimulating 
institutional and education improvement, have also served a unique 
quasi-public role in that their accreditation decisions on institutions 
have been accepted by the federal government as sufficient evidence of 
educational quality to warrant disbursement to those institutions of 
federal student financial aid and other federal grants. For the past 15 
years in particular, Congress, the Department of Education, and 
accrediting agencies have all been engaged in the very unique and very 
American effort to create an effective and trustworthy partnership 
through which privately held, voluntary self-regulation supports the 
broad public policy agenda for higher education as defined by the 
federal government.
    During the decade since the Reauthorization of the Higher Education 
Act in 1992, regional accreditors have shown that they can serve as an 
effective shield against the types of fraud and abuse that concerned 
the Congress then. As part of the on-going discussions that have 
occurred every five years since the passage of the first Higher 
Education Act, today we review again how effectively accreditation 
generally, but regional institutional accreditation in particular, 
serves the public interest through its gate-keeping role for federal 
funds. Although deeply concerned by the new levels of federal oversight 
established in 1992, most federally recognized accrediting agencies 
have come to understand and accept the relationship we now have with 
the Department of Education.
    Before responding directly to the new expectations of accreditation 
being proposed in H.R. 4283, I want to indicate for the record the 
hallmarks of a successful link between regional accreditation and Title 
IV gate keeping:
    <bullet>  Effective Co-operation with Government: Accreditation has 
proven to be an effective partner with the federal government over the 
decades, responding effective) to new federal requirements adopted in 
1992 and continued in 1998.
    <bullet>  Best Qualified to Assure Student Learning: Accreditation 
has proven to be responsive to changing public policies for higher 
education through standards that emphasize access and equity and most 
recently, assessment of student learning.
    <bullet>  Necessary to Maintain Diverse Institutional Missions: 
Accreditation honors and supports the multiple missions of U.S. 
institutions of higher education so essential to the success of higher 
education and to increased access for students.
    <bullet>  Saves Taxes: Accreditation through private, non-profit 
agencies provides exceptional service at no direct cost to taxpayers.
    <bullet>  Support Institutional Improvement: Most institutions 
support the claim that accreditation contributes value to their 
operations and supports them as they strive to improve the quality of 
education they provide.
    <bullet>  Provides Expertise: Self regulation of the quality of 
higher education through recognized accrediting agencies is an 
effective tool because its reliance on expert peer review has 
credibility with the public and with institutions.
    All of us who lead regional institutional accrediting agencies 
understood that legislators have expressed concerns about, areas that 
affect regionally accredited institutions. To this end, we have spoken 
with legislators and staffs not on , to explain how accreditation 
currently addresses many of their concerns but also to suggest as well 
legislative language for those concerns that legislators might 
determine to need explicit attention in the law. H.R. 4283 does make 
new demands of all of us. I should note that many higher education 
organizations have registered reservations about the new requirements 
in H.R. 4283 on institutions as well as accrediting agencies, We share 
some of their concerns, particularly those about the extent of new 
institutional reporting and record keeping included within the bill. 
Therefore, we support continued discussions between higher education 
organizations and the Committee and its staff
    In this testimony I will focus on the new responsibilities H.R., 
4283 proposes for accreditation. They include expectations that through 
our standards we will provide increased attention to student learning 
as well as review the capacity of board governance, We will need to 
provide strengthened evidence of our capacity to provide effective 
quality assurance for distance education. H.R. 4283 sets expectations 
for greater transparency in our processes and actions. It also calls 
for our focused attention on institutional compliance with new federal 
requirements regarding transfer. The bill sets new reporting 
requirements with the Secretary related to our site visitors as well as 
monitoring of the new Student Consumer Profile required of colleges and 
universities. Several of my Executive Director colleagues and I have 
recommended specific modifications of language to clarify the exact 
scope of the new responsibilities, and, understanding that the 
modifications will be made, have registered our support for the role of 
accreditation as stated in Section H of H.R. 4283.
    I believe it fair to say that disagreements about accreditation and 
H.R. 4283 hive less to do with what constitutes good and acceptable new 
activities by accrediting agencies than with whether it is appropriate 
for the federal government through law and subsequent regulations to 
require the new activities. Those of us who have worked closely with 
legislators on Section H of H.R. 4283 appreciate the need to show a 
somewhat skeptical public-and Congress-that we intend try assure that 
higher education accreditation serves the common good. Now to some of 
the details and recommendations.
AGENCY ACCOUNTABILITY FOR STUDENT LEARNING
    Starting with the 1988 reauthorization that explicitly mentioned 
the expectation that a Department-recognized accrediting agency include 
within its standards measures of student learning, the federal call for 
increased accountability for educational performance has been heard. In 
fact, my Commission initiated its student academic achievement 
initiative that year, and we have been energetically pushing our 
institutions to conceptualize and implement assessment programs ever 
since. Each of the other regional associations, as well as our national 
counterparts, has made evaluation of student learning a central focal 
point of our work. Each of the five regional associations that rewrote 
their standards in the past four years placed achieved student learning 
at the center of those new standards.
    In determining how best to measure and share documentation of 
student learning with current and prospective students and the public 
at large, the Committee appears to have taken into consideration the 
variety of learning goals and types of institutions in the United 
States. The fact is that a surprisingly large number of our colleges 
and universities have considerable amounts of outcome data that they 
use to evaluate their own educational effectiveness. For some types of 
institutions the data are fairly standard and provide grounds for 
comparison. graduation rates, job placement rates, licensing rates, and 
so forth. Each institution has data that are institutionally specific, 
testifying to an educational mission achieved but not allowing for easy 
benchmarking with other colleges and universities. We believe that the 
approach of H.R. 4283 to accountability is constructive to the extent 
that it:
    <bullet>  Continues the expectation that a federally recognized 
accrediting agency's standards include review of its institutions 
programs to define and measure successful student earning. Moreover, 
H.R. 4283 appears to recognize the breadth of measures interpretation 
of this requirement that gives discretion to the Department to 
interpret the law to allow for qualitative standards instead of the 
bright-Line performance standards being called for by the recent Office 
of the Inspector General report (EDOIG/A09-C0014, July 2003). 
Therefore, we have proposed that broad language about threshold 
requirements for vocational and technical programs be narrowed to speak 
only to non-degree certificate programs. Even this change may involve 
such significant new institutional record-keeping that the Committee 
may want to consider whether the costs outweigh the benefits.
    <bullet>  Requires institutions receiving Title IV monies to 
provide public information about educational performance easily 
understood by prospective and current students. However, we would allow 
each institution to create its own report fitted to its educational 
objectives and drawing, as appropriate, on the variety of data it uses 
in determining its own effectiveness.
    <bullet>  Establishes for Department-recognized accrediting 
agencies (l) the responsibility to vouch for the effective distribution 
of this public information and (2) the expectation that within an 
accreditation visit the agency will consider the publicly-disclosed 
student learning data as part of the review.
AGENCY ACCOUNTABILITY
    Perhaps the most significant new responsibilities for accrediting 
agencies are captured in new reporting requirements to the Secretary of 
Education and a new requirement for new public disclosure of 
accrediting actions and the findings behind them. While we understand 
the goal of the bill to ensure greater access to a wide variety of 
information about colleges and universities, we are concerned about the 
scope of information gathering and dissemination that H.R. 4283 places 
on the Secretary of Education. We have proposed, for example, that 
instead of sending the Secretary hundreds if not, thousands of names in 
our site visitor database, it makes more sense for each recognized 
agency to post to its web site the names of site visitors used by the 
agency in the previous year. We are pleased that the Committee has 
expressed their willingness to accept this recommendation.
    Since most regional commissions currently have information about 
selection, training and evaluating site visitors on our web sites, we 
can readily provide the data to the Secretary. Perhaps the Department 
might be best served by simply using this information as well as the 
names of site visitors when posted to each agency s web site. We are 
somewhat concerned about the massive amount of consumer information the 
Department will need to collect and assure its currency.
    Public disclosure of accrediting actions and the findings directly 
related to the actions is the largest single new responsibility in H.R. 
4283 for accrediting agencies. All regional accrediting agencies 
disclose accreditation actions, and some of them also disclose required 
ongoing monitoring. Because for decades we have considered our 
institutions to be our primary if not sole audience, disclosure of 
information specifically useful to students in particular and the 
public more generally will be a challenge. At this point, the regional 
commissions have not agreed on a consistent template that we all might 
use, but it is one of our highest priorities. We will need some time to 
discuss among ourselves and with our members the components of a 
program of disclosure that will be fair as well as honest; therefore, 
we strongly urge that Congress signify to the Department that the 
template for public disclosure should not be narrowly defined in 
regulations.
STUDENT MOBILITY AND TRANSFER OF CREDIT
    Accrediting standards hold that the institution ranting degree must 
be accountable for the integrity of that degree. Although we also 
require that institutions have transfer policies that are clear to 
students, we appreciate the fact that transfer of credit continues to 
be a matter of public concern. Although none of the regional 
accrediting associations has policies that limit the variables an 
institution should consider in determining transfer, we have conic to 
learn that many of our members act as though we expect them to limit 
transfer to credits coming from other regionally accredited 
institutions. In recent years we have all adopted the CHEA principles 
on transfer (November 2000), which mark a new consensus on good 
practices in transfer, and we have forwarded them to our institutions 
for study and implementation.
    My colleagues and I support how HR 4283 reinforces the 
responsibility accrediting agencies h) encouraging greater transparency 
in transfer to the extent that it:
    <bullet>  Affirms that accreditors should continue to ensure that 
institutions have clear transfer policies, but adds the responsibility 
reviewing compliance with new federal requirements that Title IV 
institutions have in those clearly-stated transfer policies the 
commitment to weigh more than the accredited status of an institution 
in determining transferability of credits awarded by it.
    <bullet>  Affirms that the accrediting agency itself not have 
policies that would limit acceptable transfer policies and practices 
solely on the basis of what agency provides accreditation.
    <bullet>  States that a Department-recognized accrediting agency 
will have procedures throng I which it reviews transfer policies during 
each accreditation review to ensure that appropriate policies are in 
place.
    The law proposes that an accrediting agency also will review the 
consistent application of transfer policies. We understand this can be 
achieved through a spot audit of a random set of transfer records to 
ensure that decisions are not made solely on the basis of the 
accreditation of the transferring institution. The accreditation 
process cannot be expected to judge the subjective decisions inevitably 
involved in many transfer decisions.
    Several higher education organizations have expressed concerns 
about the significant new record keeping and reporting requirements on 
transfer alone. At a time when many students move some academic credits 
among institutions two or more times, we suggest that the Committee and 
its staff would be well served to hear from those organizations or 
institutions themselves their best estimates of the time and expense 
this record-keeping might entail.
DISTANCE EDUCATION AND ELEARNING
    Each regional Commission believes that it has been doing a sound 
job of evaluating distance education generally and eLearning 
specifically. We joined together just a few years ago to adopt a set of 
best practices that inform our institutions as they implement eLearning 
and our teams as they evaluate it. While we appreciate the concerns 
that many legislators have about this particular modality of providing 
education, we draw attention to the fact that on-line courses serve 
large numbers of campus-based students as well as students studying at 
a distance. In short, legislation that classifies all elearning as 
distance education and then calls for different regulation of it will 
inadvertently set expectations for what some institutions and their 
campus based students now treat as scheduling option. We support the 
approach of H.R. 4283 in avoiding such an approach, because we believe 
that it would seriously impair the constructive adoption of improved 
methods for teaching and for reaching underserved student populations.
    The concern about eLearning appears to be directly related to the 
call to end the 50150 rule that now disqualifies from eligibility for 
student financial aid certain types of institutions heavily involved in 
eLearning. Very few institutions accredited by regional agencies are 
disqualified by the 50/50 rule, and almost all of those that are have 
been participating in the Department of Education's Distance 
Demonstration Project. We take no stand on the 50/50 rule, but we do 
not believe that the price or its abolition should be enhanced scrutiny 
of distance education (eLearning) currently provided by our member 
institutions. Moreover, we would argue that the quality of institutions 
accredited by us and now participating successfully in the Distance 
Demonstration Project is evidence that even in the new groups of 
virtual institutions, we can successfully recognize and encourage the 
quality the federal government should expect.
    Therefore, my colleagues and I support the approach of H.R. 4283 to 
the extent that it recognizes that distance learning should be judged 
by the same standards as all learning. We were pleased to see that many 
of our views regarding distance education had been heard. H.R. 4283:
    <bullet>  sets a reasonable expectation' that Department-recognized 
accrediting agencies document that their existing standards provide for 
effective evaluation of the quality of distance education, in the same 
way that is done for all types of learning. Instead of providing new or 
extra standards, it accepts the standard of comparability: namely, that 
student learning in eLearning programs be comparable to that in campus-
based programs.
    <bullet>  sets a reasonable expectation that a recognized agency 
create and implement processes that allow it to monitor when 
appropriate those institutions with dramatically increasing student 
enrollments in their eLearning programs; this seems to mirror 
appropriately current expectations that accreditors have set for 
ourselves for rapid expansion of site-based delivery.
    <bullet>  sets a reasonable expectation that our existing processes 
for selecting and/or training peer reviewers include their capacity to 
evaluate eLearning.
    <bullet>  sets a reasonable expectation that accreditors evaluate 
how institutions offering eLearning document the integrity of the 
student engaged in eLearning courses and programs. Our colleagues in 
the distance education field suggest that ``authenticity'' is a better 
word that ``integrity'' since we want to ensure that the person taking 
exams is the person who is receiving credit.
    Mr. Chairman, thank you very much for the opportunity to testify 
today. We all know that good legislation involves discussion and 
compromise. All regional accrediting agencies would probably prefer 
that the Section H remain unchanged from what it is currently. But most 
of us have engaged in the discussions that help us understand why it 
will be changed. Where it deals directly with accreditation, FIR. 4283 
reflects that our recommendations have been heard and, in many 
respects, honored.
                                 ______
                                 
    Chairman McKeon. Mr. Kildee leaned over and said that is a 
great panel, and I agree. I think your testimonies have been 
very good, both your written and your oral comments here. And I 
think that while I would prefer that we would just sit around 
and have a visit, this is the system that we use. So I 
appreciate you being here.
    Dr. Keiser, one question. We have been criticized--or the 
authors of the bill have been criticized for the transfer 
policy that we put forward, that we shouldn't stop transfers 
based solely on who is doing the accrediting. Members of 
Congress have documented evidence that some institutions of 
higher education accredited by regional accreditors refuse to 
accept the transfer credit from schools that are nationally 
credited. You made comment in your oral testimony that you have 
a story about that. How widespread or pervasive is this 
problem? Can you provide us with any examples of how students 
have been affected by decisions to deny transfers based on 
accreditation? If you could speak to that provision in the bill 
that attempts to address this issue.
    Dr. Keiser. It is a problem, and it is a problem that is 
not just limited to Florida but to the 50 States. In many 
cases, it is not based on malicious intent but just based on a 
lack of understanding of the comparability of accrediting 
agencies, whether it be regional or national. In some cases, it 
is just between institutions and interest to maintain a 
specific type of control over the number of courses taught by 
institutions.
    We had an example--and I submitted it in my written 
testimony--about a student of ours who went through our 
baccalaureate program at Everglades University. Everglades 
University is a full participant in the common course numbering 
system of Florida, which requires that each of the courses that 
Everglades offers is evaluated by an independent staff of both 
public and independent educators who review curriculum, review 
course content, course objectives and faculty credentials and 
the standards are comparable that the State requires as to the 
southern region's requirements. Yet in the letters that I 
submitted to you, Nova Southeastern University just wrote a 
letter to the person dismissing the institution's courses, the 
comparability of courses and said, because it was accredited by 
ACCSCT, we could not accept their credits and suggested that 
the student take all the courses over again. You would be 
accepted, but you have to take all the courses that you took 
already over again. This is a waste of resources, especially 
that student, a title IV participant who would have to go back 
and repay for courses that he already took; and we feel this is 
inappropriate.
    Florida--just as an aside, the reason the common course 
numbering was created in Florida by our State legislature was 
because the same problems exist between community colleges and 
State universities. So it is not just the national, regional. 
It is a problem for students in making sure that transfer of 
credit is available to them in comparable and appropriate 
times. We are not trying to force on students, but we believe 
the Committee has taken a very reasonable approach to this in 
at least the disclosure as to the policies and clear-cut 
disclosure of the policies.
    Chairman McKeon. Thank you.
    Dr. Davis challenged the idea of letting the States do 
accreditation. Could I hear from the rest of you how you feel 
about that? I guess Dr. Martin took the opposite position. 
Could I hear from the rest of you how you feel about letting 
the States also participate in accreditation?
    Dr. Erwin.
    Dr. Erwin. Well, the current system is both the accrediting 
organizations and the States ensuring quality; and I haven't 
seen a conflict between the two. I think we have seen the 
accrediting organizations evolve over a period of years and 
become a bit more specific and strict in focusing on learning 
outcomes than probably many of the States, but I really don't 
see a conflict there. I think the accrediting associations, as 
I said in my testimony, have had a positive role.
    I think there has been some unevenness in terms of the 
institutional teams. I think they are moving more toward data 
and away from peer review. Let the data speak and not so much 
someone's subjective judgment about what the students are 
learning. But I see that has been evolving over a period of 
more than 10 years.
    At least the regional accrediting associations have been 
going in a positive way. I don't know that I would replace 
their role with the States. States sometimes have some specific 
goals in mind for economic development that maybe an 
accrediting association would not.
    Chairman McKeon. Thank you.
    Anybody else wish to respond?
    Dr. Martin. We are very much for allowing the States this 
option. Dr. Erwin slightly misspoke, and I think others may 
slip into this language. We are not talking about replacing 
private accreditation. We are simply saying that if colleges 
want to go to private accreditors as they always have, fine, 
but we should restore the situation where it was prior to 1991 
where the world didn't fall apart and accrediting went on just 
fine, but States were also an option.
    I have to tell you, college presidents, board chairmen 
speak to us and say that they are actually afraid that if they 
do the kind of bold, innovative things that will rock the boat 
within their institutions that they feel should be done that 
they will get into trouble with the accreditors because there 
is such a kind of interlocking network there; and some have 
reported experiences with accreditors along those lines.
    I have to tell you that this Committee should understand 
that I have not yet found a sitting college president willing 
to come forth and talk candidly about this issue, because the 
accreditors have a lot of power over them. There are certainly 
ones that will say what their colleagues would like them to 
say, and I don't mean that they don't genuinely agree with 
that. But that is a real concern and you have to think what an 
awesome power this is. Accreditors like to talk about it being 
accrediting and it is all private, private, private. Well, the 
power they have is not private. They control $60 billion in 
Federal funds; and the way it is today, a college cannot 
survive without access to those student loan programs. So they 
have a power this Committee, this Congress does not have. They 
can close down a university. You could not do that. The 
Secretary of Education could not do that. This Committee can't 
do that. Accreditors can do that.
    Right now, they are threatening to close down Auburn 
University. What grounds? No educational issues have been 
raised. It is because the board is overly involved in the 
athletic program. Maybe that is an issue to be addressed, but 
is that why the institution should be closed, with this 
Congress trying to make such an effort?
    So the accreditors have this enormous power; and one way to 
put that power a little bit in a box is say, well, let us have 
an alternative. If you want to be bolder than the accreditors 
are comfortable with or if they are just being unreasonable, 
there is at least a second alternative you could go to. I think 
that be would be very healthy.
    Chairman McKeon. My time its up. We will come back to this.
    Mr. Kildee.
    Mr. Kildee. I think I will come back to it right now. This 
is a great panel, and we have point and counterpoint by Dr. 
Martin and Dr. Davis. I think that is helpful to this 
Committee.
    Mr. Kildee. You mentioned the State option, Dr. Martin. And 
Dr. Davis took a different position on this. In 1992, when I 
was serving on the full Committee, we grandfathered in the 
State accreditation. I don't know how many States, there are 
not many.
    Dr. Davis. Just New York.
    Mr. Kildee. New York. I was going to say, I was pretty sure 
it was just New York. New York is the one. Good staff right 
here. So New York is the one. Might there not be a different 
agenda--start with you, Dr. Martin--for the State in 
accreditation than, say, an agency like North Central? Could 
there be a different agenda, and maybe a university would be 
tempted to move toward one rather than the other?
    Dr. Martin. Yes. We have to look at the agendas here. You 
mentioned North Central. I have to say some schools are now 
being hassled by that accreditation because the Association 
doesn't like their mascot. Well, that is not what Governors and 
State higher ed commissioners are thinking about. What they are 
wanting is what Dr. Erwin was talking about; many are looking 
at performance budgeting. Can't we reward quality and 
excellence and innovation? Can't we find ways to determine 
which ones are educating students? Can their graduates write? 
Reward that. That is the emphasis we find.
    If you just ask as a matter of fact--and, you know, you can 
go look at the Chronicle of Higher Education and see what the 
different States are doing. This is what they are doing. They 
are emphasizing performance, learning outcomes, accountability, 
cost effectiveness. And I have to say, it seems to me that the 
existing accreditors, they inch along in this direction, but 
they kind of have to be a bit dragged, kicking and screaming. 
Well, why not at least allow us an option, people who really 
seem to care about these outcomes?
    Mr. Kildee. Dr. Davis.
    Dr. Davis. Thank you. I appreciate the opportunity to 
respond to that. I can't help but look around the room and 
wonder where all of them are. Because ``they'' is me, all the 
other presidents. If you are talking about government, it is 
you and us. And so often we do this, we put these labels of 
saying they are doing all this to us. But in effect, reasonable 
accreditation is peer accreditation. We help shape that. We 
work at that all the time. It is not an easy process, not even 
a tidy process. I compare it a lot to what goes on in both 
legislatures and in Congress, a lot of debate, a lot of 
difference of opinion. But it is not a they-and-us. It is all 
of us working together to try to achieve the highest standard 
we can for program quality, for accessibility for students, for 
transparency for what we do.
    There is very little that is not known about our 
institutions, in truth. If you check with the IRS, with IPEDS, 
with what we report to the states even as independent colleges 
and universities, we are basically open books. And you know 
what? I don't dislike that. I find that much of what we do 
should be open to the public. But it should not be legislated. 
And we should be very careful both the at State and Federal 
level how far we go with doing that, as opposed to encouraging, 
having public hearings to cajole and direct, even having the 
Department of Education work with us in studies to determine 
where we have shortfalls.
    But we should be very careful, in my opinion, about adding 
a new process, particularly at the State level, with 50 
different opinions about how it is be done. I was a legislator; 
I know the number of demands on the people's time. And the 
ability to know enough about a subject like accreditation is 
very limited. So I would urge caution with adding any other 
State to that list as an accreditor.
    Mr. Kildee. Dr. Crow.
    Dr. Crow. As a purely practical matter, we weren't very 
concerned about it, because we couldn't think of a State that 
really wanted to do this. To be quite honest, if any of you 
have watched the New York Board of Regents try to maintain its 
status through the Department of Education, I don't know why a 
State would want to do it, because the regulations are really 
set up for accreditation as a private voluntary organization. 
And to get a State agency in there, and to try to look and act 
like one, is turning out to be very difficult work. So I simply 
didn't think that there was--it was there. If a State wanted to 
do it, fine. I doubt if very many institutions would choose it 
as a gatekeeper, and I think they would find working with the 
Department to be an incredible hassle.
    Mr. Kildee. So you didn't really see States lining up for 
this?
    Dr. Crow. I can't think of a single State in the North 
Central region that is going to line up to become its own 
accrediting agency--or to provide its own accreditation.
    Mr. Kildee. I thank the three of you for your responses.
    Chairman McKeon. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. A very, very 
interesting hearing. I suspect I may be the only one, or one of 
the few in this room, that has suffered through the 
accreditation experience. Fortunately, I wasn't in charge, but 
my closest friend at our institution was. And I have to say it 
was a very healthy experience. But not so much the actual site 
visit and discussions, but the 2 years of preparation for the 
accreditation visit at the institution at which I taught, at 
that time; Calvin College, Grand Rapids, Michigan took it very 
seriously and did a complete review of the curriculum of 
college, et cetera. And that was very helpful. I was, however, 
not impressed with some of the issues that were addressed by 
the accreditors: the matter of counting how many books were in 
the library on certain topics and things of that sort.
    But I guess what did concern me was an issue that has been 
mentioned. I am not sure that they really looked at the quality 
of the product coming out the door at the end of 4 years, and I 
wish there was some way to do that.
    And then, some of you have mentioned this already, we get 
some measure with the GRE exam, but that is very specialized 
and it is a small number of--relatively small number of people 
that take that.
    But it was clear to me that there are some institutions 
that do very well and some that do not do very well. And rather 
than a simple pass/fail, which is what you have with current 
accreditations, I think it would be very useful to have--since 
we are used to using As, Bs, and Cs, give rankings to 
institutions as part of the accreditation process. That would 
be a real guide to the students, to the parents, and so forth. 
But it also would be nice to have good a national collegiate 
assessment tool that you can assess the quality of the 
students, what they have learned, and some overall sense. And 
if any of you have any comments on that, I would appreciate 
hearing that.
    But let me bring up another point that concerns me. And 
that is, if we get a number of different accrediting agencies, 
as we discussed, the States and others, wouldn't the poorer 
schools simply choose the easiest accreditation process rather 
than choosing the more stringent one? That is another concern.
    And a final concern is distance learning. I have--even 
though my field is a technical one, and I have been using the 
Internet for years and I think it is wonderful, it bothers me 
that distance learning is somehow considered equivalent to 
attending class, going one on one with faculty members. And 
perhaps in my field of physics, even more important, students 
learn a great deal from each other because they work on the 
various assignments together. And that is missing with distance 
education.
    So there is a potpourri of issues that I have raised here, 
and I would appreciate comments from any of you about any of 
those points. We won't have time to do all of them, but fire 
away.
    Yes, Dr. Davis.
    Dr. Davis. I will be glad to speak briefly to the first 
point about outcomes, education. In the Southern Association of 
College and Schools, especially with my years of involvement 
there, probably the last 10 years have shown a major effort to 
start to develop ways of assessing outcomes. And we use the 
terminology ``institutional effectiveness'' to deal with that. 
And a lot of the institutions really chafed under that for the 
first 4 or 5 years until they began to realize the benefits of 
actually assessing outcomes of student educational process.
    Today, it is very difficult to be accredited by the 
Southern Association of College and Schools unless you have a 
well-defined institutional effectiveness plan that has a way of 
assessing the outcomes of every single major at that 
institution.
    If you then add on top of that specialized accreditation, 
which we do in a large number of fields, I think I indicated I 
have 16 at my institution, they even go further with learning 
outcomes in those specific areas that they are accrediting. And 
we are making progress in that area. But it is a very inexact 
science as compared to physics. And I think there is going to 
have to be work that will have to be done for quite a few years 
before we reach that point. But it is happening. And I believe 
it is happening across the country. I know it is happening 
quite effectively in the Southern Association.
    Mr. Ehlers. I believe it essential to happen in view of the 
great inflation mentioned and the Mickey Mouse courses that I 
think Dr. Martin mentioned. We certainly have to do it.
    Dr. Keiser.
    Dr. Keiser. In the national accrediting arena, outcome, 
evaluation, and performance is absolutely critical in terms of 
especially the career colleges. Institutions are measured on a 
very specific set of benchmarks as it relates to retention--
that is, students' graduation rates, placement, which is how 
well they are--once they achieve their educational objective, 
how well they do in the field--and then pass rates on national 
licensing examinations.
    It is my belief as well as the Commission's that it can be 
done and it is being done to use very specific measures. Now, 
the measures are not bright lines to each institution. It is 
comparable institutions, comparing their data, and trying to 
improve the institutions by having a measure of what a standard 
deviation is. So we look at very clearly what the peer groups 
are doing, and how do you improve? And you have a benchmark in 
national accreditation.
    Even in the regional accrediting arena, there has been 
significant improvement in asking us to measure the learning. 
And in our institution, we measure through use of pre- and 
post-tests, what actual learning occurs.
    And if I may talk about the distance learning, I would 
gladly invite you to sit in on one of our classes. And what you 
were saying is that students learn among each other in the 
classroom. It is even more prevalent in an effective 
interactive distance learning environment where, using thread 
of discussions in chat areas, students get to know each other 
better than sitting in a classroom, with the person in the back 
falling asleep or not paying attention in the classroom. 
Everyone has to participate and be involved. And if you have 
taught like I have an on-line class, it is exciting learning. 
Very exciting learning.
    Mr. Ehlers. My time has expired. But may I just ask Dr. 
Crow a quick comment on distance learning? You represent a very 
venerable accrediting institution.
    Dr. Crow. And I would repeat much of what Dr. Keiser just 
said. Those who know how to engage students in a distance-
learning format, just as you know how to engage them in any 
classroom setting, actually find ways to get students, the kind 
of learning community there, that at times simply can't be 
duplicated in a large classroom.
    And so I would agree that good distance education--and that 
is what we are after, good distance education--is a very 
effective way for students to learn. And it is also a very 
effective way for teachers to help them learn.
    Mr. Ehlers. Thank you for giving me a few extra minutes, 
Mr. Chairman.
    Chairman McKeon. Thank you.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. I also would like to 
thank the panel for their outstanding preparation and their 
time this morning.
    When it comes to transfer of credits among institutions, we 
want to foster a policy of high quality. We never want an 
institution to be compelled to accept credits that would fall 
beneath its own high standards. But we don't want to encourage 
discrimination either. And Dr. Keiser, your story about the 
student at Everglades who was denied transfer of credits to 
another institution accredited by a regional agency, was that 
student given any other reason other than the fact that the 
institution from which he transferred was not regionally 
accredited?
    Dr. Keiser. In the initial letter--and you should have a 
copy of the letter in the material--it just clearly states: We 
just do not accept credits from national accrediting agencies. 
And that was the only reason. And I pursued it. It was very 
frustrating to our institution. And they would not relent.
    Mr. Andrews. Dr. Davis, it is great to see there is life 
after being a legislator. I congratulate you on your 
presidency, and I appreciate very much your unique perspective 
as someone who has sat on both sides of the table.
    In your testimony, you say that, about the provisions of 
the Chairman's bill that deal with transfer of credits, that 
the most controversial aspect of the actual language of the 
bill goes well beyond what is necessary to achieve the purpose 
of--and here I am paraphrasing--of having more transparency in 
transfer of credits. And then you go on and say that the bill 
also sets standards upon which transfer decisions should be 
made.
    I want to read to you from the language of the bill, on 
page 166 of the bill, section 495, language that says, nothing 
in this review--and by which they mean the review by the 
accreditation agency. You understand the way this is set up is 
that you now would have to have a policy that makes transfer of 
credits more transparent, more readily available. And then when 
they talk about the reviewing agency that is looking at that 
policy, the bill says: Nothing in this review shall restrict 
the right of the receiving program or institution to determine 
on any other basis--meaning other than who did the 
accrediting--or on a combination of that basis, together with 
other bases, the credits the receiving program or institution 
will accept for transfer.
    Now, how is it, then, that there is such an abrogation of 
the receiving institution's opportunity to set the standard? I 
don't understand your testimony.
    Dr. Davis. I think there are a couple of issues there. One 
is I don't think any of us argue very much about the idea of 
having a written disclosed policy about transfer of credit. I 
think as long as we are allowed within the institutions to 
determine the degree credibility, which is related to what 
courses are accepted toward that degree--a very important 
factor, because as you evaluate that, you can have a name on a 
course but the actual content and the syllabus can be quite 
different when an institution receives that information.
    The whole area of transfer of credit, because there are so 
many students transferring today, region to region, regionally 
accredited to regionally accredited, specialized, and also even 
nationally accredited, that it is one of the great 
responsibilities within an institution to determine what really 
relates to a degree. And more often than not, today what is 
happening as we evaluate those credits is trying to give some 
credibility to a degree.
    Mr. Andrews. But, Dr. Davis, in the case we just talked 
about, shouldn't the receiving university have had to--
    Dr. Davis. They should have responded.
    Mr. Andrews.--meet some--more than respond. Shouldn't they 
have to say, look, there was something deficient about these 
courses that you want to transfer, and they just don't measure 
up to our standards? Shouldn't they have to do that?
    Dr. Davis. I think they should not base it strictly on 
accreditation. I do not disagree, But I do think--
    Mr. Andrews. So that is what the bill says. How would you 
then differ from the bill?
    Dr. Davis. Well, one of the main differences that I think 
is extremely important is all the data collection that is being 
proposed about the percentage of what you accept and do not 
accept, that is going to be one huge burden of cost within an 
institution. Already--I hardly can describe for you the number 
of people that is required to actually determine whether or not 
credits are appropriate and should be accepted toward a certain 
degree.
    Mr. Andrews. But aren't those data you are already 
collecting?
    Dr. Davis. No.
    Mr. Andrews. Tell me what happens. If someone receives a 
transcript of a student, and the student says I would like all 
my credits accepted, and someone in some office, the provost's 
office or whomever, says, no, we are going to accept these 60 
and reject these 40; isn't it just a matter of keeping track of 
the 60 and 40?
    Dr. Davis. It sounds very simple; but one student may have 
four transcripts, one student may attend three or four 
institutions. And when you start collecting that data and then 
putting it in formats that you are oftentimes asking for, it is 
a burden on the institution.
    Mr. Andrews. But it seems to me, by definition, you are 
already collecting those data, because you are making an 
internal decision about which credits to accept and which 
credits not to accept. You must have a record somewhere of what 
you have looked at. Isn't it a matter of simply formatting the 
record and disclosing it?
    Dr. Davis. It sounds simple, but it is not simple. I can 
assure you.
    Mr. Andrews. I would be curious to hear why.
    Dr. Davis. It is because of the volume. It is because of 
the volume of transfer credits that are involved. It is because 
of the complexity of the number of different kinds of courses 
that you are evaluating--
    Mr. Andrews. But don't you do it now?
    Dr. Davis. To meet general education, to meet specialized 
education.
    Mr. Andrews. But you are already doing that now, Aren't 
you?
    Dr. Davis. I won't admit that it is simple, because it is a 
complex process, and it will be made more difficult by what you 
are proposing.
    Mr. Andrews. I am not asking you to say it is simple. I am 
just asking you. You said the data collection was a burden. It 
seems to me you have already collected the data to make your 
own institutional decision about which credits to accept and 
which to reject. It is just a matter of to whom you disclose 
the data, isn't it?
    Dr. Davis. I respectfully disagree with you in terms of 
what is required to provide that information. Even if you are 
making a record of whether or not you accept a credit, it is 
not easy then to put that in the format and make it available 
for public disclosure, or for someone to understand, because of 
the complexity of transfer credits.
    Mr. Andrews. OK. Thank you very much.
    Dr. Davis. Thank you.
    Chairman McKeon. And I thank you very much.
    What the letter said is that transferred credits earned at 
an institution not accredited by a regional accounting body 
such as North--is unable to accept.
    So if you take that kind of a policy, it is very easy to 
just say the credits are no good, and the student pays the 
price.
    Mr. Osborne.
    Mr. Osborne. Thank you, Mr. Chairman. I would like to thank 
the members of the panel for being here today.
    I was interested in many of your comments. Dr. Erwin, I 
think you mentioned that there is a void at the collegiate 
level assessment of learning. And I certainly agree with you in 
that regard. And I just wondered if you had any thoughts as to 
how this might best be accomplished. You mentioned the NAPE 
test, which is at the secondary education level. And we 
obviously don't have anything like that at the postsecondary 
level. And do you have any thoughts in that regard as to how 
this might be undertaken?
    Dr. Erwin. If you could ensure that there would be an 
evaluation process where there would be some information 
available--I mean, I listened, and a lot of the decisions you 
are trying to make right now about whether distance education 
is effective, whether transfer credit is effective, whether any 
new instructional approach is effective, the only way to answer 
that is to have a consistent measuring instrument, and then 
where you will set standards and say we would like to see 
students perform at this level for the college-educated person. 
And then it becomes an empirical question.
    But in terms of the Section 1025, I would like to see 
perhaps that counsel make some specific action-oriented steps 
to move us toward a more consistent evaluation policy where 
each institution, for example, would collect, in a programmatic 
way, student learning data about general education.
    Mr. Osborne. Are you advocating some type of a national 
test? Because it seems to me if you are going to compare--if 
each school does its own evaluation, you really are going to 
have a hard time. Like when you mentioned the NAPE, you don't 
have anything like that.
    Dr. Erwin. Dr. Osborne, I think the question you all have 
to answer is do you want to compare institutions. I think you 
all have to answer that question first. If the answer is yes, 
you need a common measuring device. It is just like you would 
have to ask the same question within a given State: Do you want 
to compare the institutions within a given State? And if you 
want to, you are going to have to have the same yardstick. You 
can't have one yardstick over here in metric and another 
yardstick in the English system and try to compare those 
easily. There is a lot of error involved already in any kind of 
test, because there is a lot of human error involved in any 
measuring device of human abilities.
    Mr. Osborne. Well, I agree you need a common standard, 
certainly. And having been in a university for a lot of years 
and having looked at a lot of transcripts, I saw tremendous 
differences in what we were getting out of one school as 
compared to another. And you are a little concerned about the 
overall quality.
    And, Dr. Martin, I guess I have a question for you. You 
mentioned the lack of any core curriculum, and that so often 
students graduate without much or any English or government, 
math, science, economics. And would you advocate a core 
curriculum being a part of a college degree?
    Dr. Martin. Well, absolutely, Congressman. You know, if we 
really cared--sometimes I feel the problem with higher 
education, it is successful, of course, in so many ways, but 
you feel there is a lack of central passion about making sure 
the students are well educated. Because, really, I don't know 
any 40-year college that doesn't have it as a general goal that 
students be able to write well, for example. Well, then why 
don't they all test and see whether their seniors can write 
well? I often ask college presidents, do you do anything to 
find out if you are succeeding? It is as if General Motors put 
out automobiles and never tested one of them.
    And, well, they tend to give me the process, saying: Oh, we 
have got a writing center, we have got this and that. We have 
got these various inputs. Well, do you know if they are 
working?
    And this is exactly--it is one reason I am so and my 
organization is so passionately for the State option, is this 
is exactly the kind of question a lot of the States are asking 
because the parents and taxpayers are asking: Can the graduates 
write? Do they have the quantitative skills? Easy to test. Why 
not?
    Mr. Osborne. Well, it does seem--when you listen to people 
in the industry, the biggest complaint is inability to write 
and communicate. And in almost every job you have to have some 
ability.
    The last question. Dr. Davis, you mentioned that we have 
the best higher education system in the world. And I guess in 
some ways that is true. But I wondered how you arrived in that 
conclusion. What would your definition be of the best in the 
world? We certainly have a lot of people being educated, but 
is--and this is a tough question.
    Dr. Davis. That is always a dangerous thing to give a 
president the chance to say that.
    I have spent 22 years as president thinking perhaps I might 
serve as much as 5. And that 22 has given me a wonderful 
perspective to look at the changes that have occurred in higher 
education, because most of you know that the tenure of a 
college university president is 5 to 7 years.
    I have had a chance to travel in at least 20 countries 
around the world, to work with at least 32 different 
institutions scattered from Thailand to Japan to South America 
to Africa, and I have not seen a better system anywhere in the 
world, anyplace I have been, as far as the creativity, as far 
as the diversity, and as far as the basic skills set that our 
students have.
    I will give my colleague Dr. Martin credit, he can pick out 
one or two examples of the failure to do something within an 
institution and condemn the whole system, but our system is the 
best in the world. And you--why would students from all over 
the world seek to come here the way they do today if it was not 
the best? I will tell you what, they are discerning customers. 
They know we have the best system in the world, and they want 
to come. That is the best judge I have of having traveled and 
seen, and to hear from those students.
    We have students from more than 40 countries at my 
institution, for instance, that judge us every day. And I thank 
you for the opportunity to share my personal perspective on 
that one.
    Mr. Osborne. Well, thank you. I am sure there are a variety 
of reasons why they want to come here, but maybe we do have the 
best. I hope we do. I yield back.
    Chairman McKeon. I thought that was an excellent question, 
because many times many of us say we have the best. And I don't 
know what we are actually measuring it against. I don't think 
Dr. Martin said that it is a failure, and I don't think he 
picked out one or two.
    Dr. Davis. And I didn't mean--
    Chairman McKeon. Just because we say we can do things 
better doesn't necessarily mean it is a failure. And Mr. Kildee 
asked if he could make a comment on that.
    Mr. Kildee. Just to comment. I really--you know, looking at 
our trade deficit, one of the great things that we export is 
higher education. And I see that in Michigan, at the University 
of Michigan, Michigan State, Wayne, Kettering, different type, 
public and nonpublic universities. It is really one of our good 
exports, higher education. Thank you.
    Chairman McKeon. Thank you.
    Ms. McCarthy.
    Mrs. McCarthy. Thank you, Mr. Chairman. And I thank you for 
the panel. It has been very interesting. And all the questions 
I had, some have been answered, others have been rewritten. But 
I will say, because I do spend an awful a lot of time in my 
universities and I have had the privilege of going overseas and 
seeing universities in other countries, and I have always 
believed that our students are the best because they are well 
rounded and they have the opportunity to learn so much in 
different areas and come together.
    Free thinking I guess is the word that I can think of. And 
I think how we can measure that is on how well our students do 
when they go into these big companies, and our companies are 
doing well. So I think that is a good measure right there.
    But going back on to the issue. Dr. Davis, you said it 
would be a burden on schools to keep track of data related to 
credit transfers. Isn't it a tremendous financial burden on 
students to have credit denied out of hand just to be--just 
because of the accrediting agency? But I want to follow through 
with that, too. And I will go back to Dr. Martin, if the both 
of you could answer this.
    The question to follow up on the State accreditation: What 
if any appeal process is there for a school which is denied 
accrediting or whose accrediting is revoked? Did you hear me?
    Dr. Martin. I didn't hear the end of that.
    Mrs. McCarthy. It is my New York accent. Oh, and that is 
the other thing, because New York already has this, so why 
aren't we doing what New York does? So, basically, it goes: 
What if any appeal process is there for a school which is 
denied accrediting or whose accrediting is revoked, you know, 
taken away? Which led back to your testimony.
    And if I can throw one more in, because this is important 
to me. When we have the transfer of credits, my special concern 
for the bill would do away with specialized accreditation, for 
example, the nursing accreditation. Being that I am a nurse, I 
want to know how that is going to be handled as far as with 
this bill. And I yield back to the panel.
    Dr. Martin. Well, within the accrediting process there are 
appeals procedures; schools get warnings, placed on probation. 
There is a back and forth. In the end, these things often end 
up in court, where the school being threatened with 
deaccreditation is claiming some illegality took place. Of 
course, that is very expensive and cumbersome. But the 
accreditors in the end have sole authority over whether to 
close--in effect, to close the school by withdrawing 
accreditation.
    Ms. McCarthy. Dr. Davis.
    Dr. Davis. Again, I have had the experience of sitting at 
all levels of this at one time or another. An institution 
actually has the right throughout the process of peer 
accreditation to respond to questions that will lead to a 
status change for them. And they even can appear before panels 
of the Commission to respond to concerns that have been raised 
by the visits to the campus. If then the Committee, which votes 
on whether or not to approve their self-study and the results 
of their visit--which I served on that panel as well--they can 
appeal that then. And there is an established process. And 
after about 10 years--I have served on that appeals panel as 
well. Not for the same institutions that we acted or 
otherwise--and that process follows due process. Attorneys are 
present. There is a long involved process for an institution 
before they are ever rejected for membership.
    But I will say this to you. Institutions have been denied 
membership because they did not measure up to the standards. 
And that to me establishes the fact that the system works.
    The other question you asked about was specialized 
accreditation. I am hoping, as I read the bill--and I have to 
admit that I still do not fully understand it all, and the 
Chairman has instructed me already on one or two items. 
Specialized accreditation I don't think is going to be harmed 
by this, because that is a voluntary form of accreditation that 
institutions choose: I voluntarily agree to invite 16 
specialized bodies to come and certify our program, so when our 
students want to be licensed, they are able to sit for 
licensure exam and be a professional. And I think those are 
wonderful additions, to be quite honest with you, to regional 
accreditation for institutions that are good and strong.
    Mrs. McCarthy. And can we go back to--go ahead, Dr. Keiser.
    Dr. Keiser. Well, in the national, similar to regional, it 
is a very special process. For a school to lose its 
accreditation, it will have many opportunities to respond to 
the concerns that the Commission has, both in writing and in--
eventually in a presentation before an appeals panel. So when a 
school is removed from accredited status, it is a very 
stringent and--and due process is protected at all times.
    In the terms of specialized accrediting agencies, our 
institutions have--we have a total of 16 distinct 
accreditations. It is voluntary, it is very cumbersome. But the 
ultimate is to give our students that additional recognition. 
And that is why they are all voluntary. Some requirements for 
practice require accreditation, like in terms of x-ray 
technology or things like that. But we--you know, we invest in 
that process, one, to make our programs better, and, two, to 
give our students the ability to have recognition by the 
community. So it is a--you know, it is a burdensome process, 
but it is valuable.
    Dr. Martin. If I could, Congresswoman, just to make it 
crystal clear. There is due process, but it is due process 
within the accrediting association that is really in the role 
of judge, jury, and prosecutor, but conducting those roles 
under certain rules that are well known and well established.
    Mrs. McCarthy. Thank you very much.
    Chairman McKeon. Thank you.
    Mr. Castle.
    Mr. Castle. Thank you, Mr. Chairman.
    As the Chairman knows, I head a Committee that deals with K 
through 12 education--Subcommittee--and No Child Left Behind, 
which I thought was going to be the toughest piece of 
legislation. But the more I look at this higher ed bill, the 
harder I think it is. And I just give you credit for trying to 
work through this. You and Mr. Kildee deserve gold stars for 
this one. This is really tough.
    I have some general comments and then perhaps a question or 
two. I mean, I agree with everybody else that has spoken about 
this, that we probably have, collectively, the best higher 
education system in the world. That doesn't mean that we don't 
have flaws, problems, and some doing better than others.
    And, to me, there are certain inherent problems. I think it 
has become too expensive. And I think the rate of increase in 
expenses is, frankly, absurd. That is not a subject of this 
hearing, but I just can't resist saying that with all of you 
there. I just think something has got to happen about the cost 
of higher education in America. And we as a Federal Government 
just can't increase Pell Grants and other things and loans, et 
cetera, in order to accommodate that. There has to be--
something has to be done.
    I also think it is not transparent enough. You probably 
worry about what is the U.S. News and World Report when they 
come out with their various ratings, et cetera, what are they 
going to say, or whatever. But I think the reason people are 
interested in that is it really gives you sort of a broad--
whether you agree with all the categories or not, it gives you 
sort a broad interpretation of what is going on in colleges. 
People don't see that. And that is why there is so much 
readership interest in that.
    Most Members of Congress have college degrees, but frankly, 
most of us didn't do it by distance learning. So we talk about 
distance learning, we get a little confused about an area that 
we aren't really used to in talking about that. And we are not 
really, frankly, used to for-profit institutions in education. 
That is new to us as well. Not to suggest that any of those 
things are bad. Or even career education, per se. It is more--
to me, it is more specific than it used to be and it is more 
prevalent than it used to be in some form of higher education.
    And now there is this accreditation confusion. I just, I 
thought, sort of basically understood accreditation until I 
started preparing for this hearing. This is the most difficult 
and confusing subject I have ever dealt with, and it is going 
to take a lot of resolve, I think, for all of us to work out 
something that will work well enough.
    But I actually want to go back, Dr. Erwin, to what you said 
early on actually. And it is something which I think you are 
doing internally rather than externally, and that is that I 
don't think there is enough focus on education in higher 
education right now. And that worries me a lot. I mean, 
frankly, this whole business of grade inflation, of reduced 
weeks of the year the kids are going to school now, the Fridays 
off, the lack of discipline in terms of what is demanded of the 
students, has really started to bother me a great deal.
    And I was very interested in your comments in terms of all 
that you are doing with respect to looking to the schools and 
the--I am sorry, the students in the first year they are there, 
and then thereafter, to see how much gain they have really 
made. I assume that that is an internal mechanism? Or you do it 
for the process of accreditation? And do you know of other 
schools which are doing it? Because I think it is frankly, 
something that we need more of in terms of looking at how our 
colleges and higher education in general is really doing.
    Dr. Erwin. We go way beyond what is required. There are 
very few institutions that are probably out there doing as much 
as we are. But you are exactly right, we do--we have two broad 
analytical strategies. We look at students, we test them when 
they come in and almost 2 academic years later to see how they 
change over time. Some people refer to that as value added to 
the institution.
    In some other areas, we also set a standard. When I think 
of standard, I am talking about a standard on a particular 
assessment instrument. And we say that when students have these 
courses they should be performing at this level. When we won't 
let them in some areas, like information literacy, which is the 
ability of people to find and access information, whether it is 
on the Web or any kind of electronic data bases, we want them 
to be able to meet that standard before they can go on to the 
second year of their undergraduate experience.
    Mr. Castle. Not to interrupt you, but my time is obviously 
running out. Do you make decisions about the continuance of a 
particular course of study as a result of what you learn from 
that, or how a particular professor is doing from looking at 
that? Do you actually make decisions from it?
    Dr. Erwin. We have not used it for personnel evaluations 
for faculty. We have used it for student progression. They have 
to know this material or do this skill before they move on. But 
we have not used it for individual faculty evaluation.
    Mr. Castle. Well, I am concerned about the proliferation of 
offerings out there by our schools. I am a believer in sort of 
a tighter education system, and make people like me take math 
courses and things like that. I think it is a good discipline. 
Does this help you--or if you know about other colleges, does 
it help you in terms of perhaps elimination of some of those 
rather esoteric, perhaps unnecessary, courses?
    Dr. Erwin. Well, what we do is in our general education 
program, we require that the courses that are initially in the 
curriculum, they have to have positive data, positive student 
learning data, for those courses to remain part of the option 
in the general education curriculum. So, I mean, that is part 
of the institutional policy. No one has told us to do that 
outside the institution.
    And so what has generally been tradition in higher 
education is once you have a course approved in a particular 
curriculum, whether it is for general education and the major, 
it kind of tends to stay there for a long time, if not forever. 
So we try--we took apart, abolished our entire general 
education program--which, at my institution and typically at 
most institutions, is one-third the undergraduate curriculum--
and we rebuilt it a block at a time, trying to--very 
deliberately deciding what we wanted the college-educated 
person to know to be able to do.
    So, yeah, those courses--if the students are not learning 
what we want them to learn in particular courses, those courses 
cannot be used to satisfy requirements anymore.
    Mr. Castle. Well, thank you. And I thank the entire panel. 
I am sorry I didn't have a chance to ask the rest of you 
questions, but I think the Chairman would have had a fit if I 
started to do that.
    So I would yield back to the Chairman.
    Chairman McKeon. Thank you.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. I have a lot of 
questions, but I want to maybe get some quick responses on a 
few questions that I do have.
    Dr. Martin, can you provide to this Committee the school 
that wasn't allowed to be credited because of its mascot? Do 
you know which school it was?
    Dr. Martin. The controversy. One is University of North 
Dakota, and another at the University of Illinois.
    Ms. McCollum. And they were going to be refused entire 
accreditation by every--regional and national accreditation?
    Dr. Martin. I just know that they are being given trouble 
by the accreditors over those.
    Ms. McCollum. Oh, you know--
    Dr. Martin. There is controversy in the papers.
    Ms. McCollum. That was a very broad statement that you 
made.
    Dr. Martin. I used the word ``hassled,'' I believe.
    Ms. McCollum. Well, I won't get into arguing. Words are 
important for choice. You also, after we heard one of the 
gentlemen, part of the panel, saying that there is due process, 
going all the way through to due process within our courts, 
you, Dr. Martin, also then came back and said that these 
accreditation bureaus--there is no court--you said they were 
judge, jury, and everything?
    Dr. Martin. The process is entirely within the accrediting 
organization itself. It is not in any kind of an appeal to an 
independent body outside the accrediting organization. So the 
very group bringing--threatening your accreditation is also 
conducting the appeals process and deciding whether your plea 
should be upheld or not.
    Ms. McCollum. And so any gentlemen on the panel, you agree 
with that? Or is there another, is there another appeals 
process and we are not having full disclosure here? Gentlemen?
    Dr. Davis. There obviously is a different appeals process. 
Different individuals are involved in that appeals process. 
And, again you remember, this is a peer process that we are 
talking about. And due process is followed throughout and with 
all the rights, as I said, of attorneys present, records kept. 
And then the final appeal body--and most people don't object to 
this, we all recognize this--the courts are the final arbiter 
if we can't solve our own problems.
    Ms. McCollum. And, Dr. Davis, what courts are those?
    Dr. Davis. Those are the courts of the land, both State and 
Federal, depending on what the violation or the charge might 
be.
    Ms. McCollum. So it isn't all internal?
    Dr. Davis. No, it is not.
    Ms. McCollum. Thank you.
    Dr. Keiser, I fully understand the frustration about not 
having credits transferred. Minnesota just recently--well, not 
that recently--went through and tried to do it seamless, for 
parents, for students. But people still have to have personal 
responsibility in the college that they choose, the courses 
that they choose if they are looking to transfer.
    Personal responsibility. When you haven't been able to get 
your programs regionally accredited, were you given a course of 
action to take in which to have your programs accredited?
    Dr. Keiser. In this particular case, the school is a 
nationally accredited institution. Yet, it is also part of a 
Florida common course numbering program where each course was 
evaluated by groups of educators, including from State 
universities and independent institutions, to determine 
comparability. Those credits would have been and ultimately 
were able to be transferred into a public university. The fact 
was, there was no evaluation process other than the fact who 
accredits the institution. In this particular case, it was ACC-
SAT, and yet one of my institutions which did the freshman/
sophomore, which is regionally accredited, was automatically 
accepted. So it was very arbitrary and very capricious. And 
there is no appeals process to institutions like that, at least 
not at the institutions I discussed, because in fact I talked 
to the president, talked to the president personally as a 
personal friend, and, you know, there was just a stone wall.
    Ms. McCollum. I just have another second here left. And I 
find it interesting that we are holding colleges responsible 
for students entering college not able to write. And I do know 
that students sometimes need a little brush-up or something 
like that. The college will offer a remedial writing program. 
They take it, they don't get a credit for it. They might try to 
push it when they go to transfer to get a credit for it, but 
they are going to say no, I am sorry, this isn't going to 
transfer. This was a brush-up course.
    Is it the college's responsibility to be held accountable 
when a student who is a freshman, that they are allowed to come 
in, needs to take these remedial classes, that somehow they be 
transferred, or somehow the college somehow isn't living up to 
its accreditation when it tries to help, and in some cases an 
adult returning after being out of the process maybe for 20 
years where math and science has really changed?
    Dr. Davis. May I respond? You have just touched on the most 
sensitive question related to the transfer of credit, in my 
opinion. And that is, all of us accept transfer of students, a 
lot of them. And when we do that, we take responsibility for 
certifying on graduation that they meet the requirements of our 
degrees. So we do share that responsibility with the student. 
And I emphasize that to parents and to students regularly when 
this question comes up at the end, that is a shared 
responsibility. We are going to do everything we can to help 
you meet the requirements of our degree, but you came in as a 
junior and you have already in effect been given credit for 
knowing how to write, in effect, from freshman writing.
    And we do have some responsibility there. And we oftentimes 
even have remedial efforts at writing at the junior and senior 
level when we know that occurs. But it is a shared 
responsibility, and I appreciate your bringing that forth very 
quickly, that, when you choose your institution, when you 
choose what courses you are going to take, you are setting some 
of the answers to what is going to happen when you apply for 
transfer of credit to other institutions.
    Ms. McCollum. Thank you, Mr. Chairman.
    Chairman McKeon. Thank you. And that is why in the bill we 
are asking that we have a transfer policy that is up front, 
objective, and the student when they start a school will know 
what will transfer when they leave that school. That is why we 
are asking for that in the bill.
    Mr. Burns.
    Mr. Burns. Thank you, Mr. Chairman. I thank the panel. You 
have been very gracious with your time and your expertise.
    I spent 20 years in the university system at Georgia, and I 
have been on accrediting task forces at my university for SACS 
and AACSB, and I represent the University of Georgia along with 
another dozen or more schools of higher education. So I have 
been down the road. I have even taught an on-line course. So, 
you know, I have a bit of experience there, as a matter of 
fact, a whole lot more than one.
    I want to talk about accrediting bodies. There are national 
bodies, there are regional bodies, there are professional 
accrediting agencies. Are there too many? Are they 
proliferating? How do we--we are going to rely heavily on 
accreditation as a measure of quality. Now, how do we ensure 
that the accrediting bodies indeed have the capability and 
skills and ability to indeed evaluate their members?
    Dr. Martin or Dr. Davis.
    Dr. Martin. Well, I must say I certainly wouldn't want to 
narrow it. It is already, in effect, regional monopolies with 
just a few exceptions of certain kinds of institutions that go 
national. That is one reason our organization has endorsed the 
idea of restoring the right of States to also be recognized by 
the Secretary as accreditors, because you get a little more 
competition into the system and some alternatives from the 
people we know to be very, very concerned with the educational 
performance of the institution. So I think we need more 
competition, not less.
    Mr. Burns. Dr. Davis?
    Dr. Davis. Yes. We live in a wonderful country and we have 
a great arbiter here that we oftentimes don't pay enough 
attention to, and that is the consumer, the student. And I can 
assure you, if you have AACSB accreditation within a 
university, you are going to do better competitively with 
students and business because they know the value of that. It 
says something. And I think the same is true for nursing, I 
think it is true for a number of the disciplines. It is an 
important consideration.
    I don't think there can be too many reviews of an 
institution. I wish we could coordinate those more. I am 
certainly not encouraging you to legislate that, however. I 
think that is the responsibility--we have to figure out how to 
do that.
    I have 16 different groups come and visit my institution 
over a 10-year period in addition to regional accreditation. 
And that is a chore to coordinate all that. But there is value 
from that, and the consumer eventually decides the value of it, 
and they encourage us then to have those accreditations.
    Mr. Burns. I would agree. I think that certainly in the 
specialized areas where we are having new disciplines that are 
developing, and new standards, especially when you get to 
licensures and those kinds of issues. I am a little cautious 
sometimes in competing--in competing environments where new 
accrediting agencies may pop up in lieu of the recognized 
standard.
    I would like to go back to my colleague Mr. Osborne's 
comments a few minutes ago. How do you compare institutions? 
And I will tell you, I have some reservations about a national 
standard. I am not sure that is something reasonable that can 
be achieved. I don't think the government needs to evaluate the 
institutions, but I certainly agree with Mr. Castle that the 
consumers need to be able to do that. They need to be able to 
look at the outcomes, the associated outcomes with prospective 
students, and certainly their families, as they do that.
    I want to shift a minute to distance learning. The biggest 
challenge that I faced in dealing with distance learning was we 
were moving from a contact model, contact hours, to an 
outcomes-based measure. Can you provide input on how you are 
going to evaluate those two things? Dr. Keiser?
    Dr. Keiser. I am not sure that is a necessary requirement 
in distance learning. In fact, we have very strict standards in 
contact. The only difference is it is an asynchronous process 
that students can be involved 24 hours a day, 7 days a week. We 
have very specific contact requirements, and our software 
measures the amount of time that is invested in the process. We 
have a specific amount of time that the students must invest in 
communicating through our various communication models. And we 
have evaluate the students by the time involved in the process. 
So we are very outcomes-oriented, but at the same time we still 
have a very strict requirement in terms of time on task.
    Mr. Burns. Is this model--again, I have taught in a number 
of options. But contact in the on-line world is different from 
contact in the traditional world. And I concur with you, the 
quality of contact can be far superior in an on-line 
environment because of the direct involvement. But again, the 
challenge for the faculty member is ensuring that level of 
involvement.
    Dr. Keiser. Absolutely. And that is the critical 
difference. The same faculty who are speaking and may be doing 
just a platform kind of environment where they are lecturing 
are not necessarily the appropriate faculty members for 
distance learning. And you have to train your faculty to 
produce the same kind of outcomes you would in a classroom 
environment but using different strategies. So we find--and, 
again, we are very excited by the contact time, in fact greater 
amount of time by students, in an on-line environment than just 
sitting in class, going to class 3 hours a week in a particular 
class for 16 weeks.
    Mr. Burns. Thank you, Mr. Chairman. I yield back.
    Chairman McKeon. Thank you very much.
    Mr. Payne.
    Mr. Payne. Thank you very much. This has been a very 
interesting--something I have never given too much thought 
about, only being in elementary and secondary education as a 
former teacher. But I did follow students as they applied to 
college and, you know, happy when some got in to where they 
wanted to, others on waiting lists and so forth.
    But I just have a quick question because I know very little 
about the way colleges--the accreditation organizations become 
assigned. Do colleges have the right to select the accrediting 
organization or is it done at the regional base?
    Dr. Davis. The regional accreditation is based on where 
your institution is located. There are five regional bodies; 
and depending on where your institution is located, if you want 
to receive Title IV funds and if you want to be regionally 
accredited, you have to do it within that region.
    There are some programs that cut across regions, however, 
and that requires the cooperative agreement between the two 
regional bodies to work out how that is done.
    Specialized accreditation, on the other hand, is by choice 
of the institution for the program that they have. Some people 
would say you don't really have a choice if there is a 
licensure exam that you must prepare for that student in order 
to graduate and be a professional. So if you want to have, for 
instance, a physical therapy program, you must be accredited by 
that body, and your students then can sit for a licensure exam 
at the end of it.
    Now, national accreditation is slightly different. People 
do choose to apply for accreditation with national bodies.
    Mr. Payne. Now, I heard--that is very clear. I heard that--
I know that Dr. Martin supports the States being able to 
accredit colleges within their States. Where did the rest of 
you fit in on that, quickly?
    Dr. Keiser. Our organization has not taken a position on 
the States. But what is interesting is the issues that Dr. 
Martin brings up I think are addressed right now by States, 
because all institutions have to be approved or licensed at a 
State level prior to receiving accreditation. And the States, 
if the States wanted to impose a particular set of educational 
requirements, they have that opportunity now.
    I served on both State licensing boards in the independent 
sector in Florida for vocational and collegiate institutions, 
and frankly we don't have the resources or the structures to 
provide the same kind of function that accreditation does, 
because, first of all, there are so many more institutions and 
many of them are not accredited, and we have different 
requirements for the diverse group of institutions that we 
license.
    With accreditation, you are taking a different kind of 
institution that is more focused toward the needs of 
improvement, self-improvement, development, and not all 
institutions want to be accredited.
    Mr. Payne. Dr. Crow.
    Dr. Crow. And I will--just to repeat. Most States at this 
point, I think, feel that they have the flexibility and the 
freedom to shape the education in their States as they want to. 
I just don't see them as being answerable to the Department of 
Education for how they are going to do accreditation for 
gatekeeping purposes. I don't think they are interested in that 
business.
    Dr. Martin. Well, I must report for the record that we are 
in contact with some people in States who are interested in 
that option.
    Mr. Payne. Dr. Erwin.
    Dr. Erwin. I think the States have taken a more precise 
role, and that is, they review specific major programs. They 
have to approve them before they go--before an institution can 
grant a new major program in many States; and in many States 
they also can abolish particular programs because they are 
obsolete. So I think there is still going to be a shared 
responsibility, regardless of what you do.
    Dr. Davis. I will just add one word. I am opposed to States 
being accreditors. The States have always exercised their 
responsibility to determine who will operate within that State, 
and they have been very reasonable with the independent sector 
of higher education with not restricting the freedom, then, to 
create new programs that are oftentimes not able to be done by 
public institutions or through public treasury. And, as a 
result, everybody has benefited.
    And I hope that in what we do here, we don't encourage 
something that is not needed. And that is the position that I 
take. It is not needed or desired to encourage States to be 
accreditors.
    Mr. Payne. I have three quick questions, since there is no 
one behind me, and I know the Chairman might give me the 
latitude to ask these quick questions because he is a very nice 
person. You should hear me in the other room talk about him. 
But that is another story. I just need the time now.
    How do you feel about this U.S. News and World Report 
business? I mean, they come out with the--do you think that 
they do a credible job? Do you think that they are helpful? Are 
some categories destructive? You know, the party college of the 
system and the one where you have the--whatever. You know, some 
of the categories. And how do the colleges feel that they can 
actually react against that? I don't want to abuse the time too 
quickly, but it is too important, and maybe a quick answer.
    Dr. Erwin. Well, I had already responded to that in my 
testimony. You have to ask the question initially, how much 
students learn. Is that important to you as a consumer? And if 
it is, you are not going to find that in the ratings. Now, it 
is not U.S. News and World Reports' fault. It is because many 
institutions do not collect that information. Specifically, The 
U.S. News and World Report rankings are based on reputation, 
amount of resources, alumni giving rate, for example.
    And, for example, there is a survey given to the presidents 
and the directors of admissions, asking them to rank or 
evaluate the reputation of a long list of institutions.
    Dr. Erwin. Often, they really have not heard of what is 
going on at another institution, much less how do you really 
know much students are learning. If your concern is about 
learning, you are not going to get that.
    Dr. Martin. I wouldn't be critical at all of those surveys. 
They are reporting the information they have. But you do 
wonder, why isn't higher education focusing more on this 
question of what students are learning? Why aren't there 
results being made available to consumers? Why isn't that a 
real part of the accreditation process?
    And I suggest you look at the track record. You look in 
vain for cases where that is the issue that a school's 
accreditation is being threatened on.
    Dr. Davis. Presidents like myself chuckle with the U.S. 
News and World Report because if you happen to be ranked really 
high, it is nice. But if you happen to be not ranked in the top 
20 or so, then it is not a very good report.
    It gives you basic information about a number of factors 
that the public wants to know. They would buy the paper 
otherwise. It is a consumer-oriented thing that works for U.S. 
News and World Report. They could go further, if they wanted 
to, with the data they have, with analysis. They choose not to 
because the public will only read so much and their magazine is 
very popular. That is a very popular issue that comes out.
    It is slightly dangerous for a student and a parent, 
however, to sit down with that and find a match for a son and 
daughter. It takes more than U.S. News and World Report to do 
that. And finding that match in the diverse system of education 
that we have in this country is hard work for parents. And 
those of us who run these institutions like to work with 
parents and help get a good fit, because when we do, that 
student stays for the 4 years and then we are not in the hot 
seat for not graduating the right percentage of those students 
that come. Because that decision, more often than not, is made 
by the student more than it is the institution; but we get 
credit or blame when it works, and we share that credit and 
blame.
    Dr. Keiser. Career education, which is increasingly a large 
portion of higher education, is not really relevant to us. 
However, we would like to see a U.S. News and World Report 
looking at institutions that have career focuses, looking at 
how many students that start the school actually complete and 
how many of the students who started in a particular major get 
in the field that they are trained for and how many people that 
went into nursing or went into lab tech, how many actually 
passed the national boards. We would love to be compared in 
that environment.
    Dr. Crow. I think about 80 percent of our students choose a 
college by its convenience of location. They are not, in fact, 
shopping. They want some assurance if where they are going to 
go is, in fact, going to provide an effective education. They 
don't have many options. They are not ready to move across the 
country or move out of the city.
    U.S. News and World Report, as far as I am concerned, is 
really valued by the top 100 and they try to maneuver who gets 
in it. But for the vast bulk of our students in today's 
American higher education system, they don't have choices like 
that. They are going to choose what is most convenient, and 
they want to know that it is going to be effective and OK for 
them.
    Mr. Payne. Thank you. This may be a yes or no answer, the 
new laws we have--PATRIOT Act, et cetera--has that impacted on 
your foreign students? I know in some local schools in the New 
Jersey area, especially New Jersey Institute of Technology, the 
College of Medicine and Dentistry, they have not only had a 
tremendous impact on students, graduate students and faculty--I 
wonder if that is general or just close to the East Coast. Just 
``yes'' if there is an impact, or ``no,'' more difficulty 
getting in and out of this country.
    Dr. Erwin. Yes, it has impacted our institutions, made it 
more difficult for us to have international students admitted 
into the country, and we have--admitted into an academic 
program.
    Dr. Davis. Yes. In a number of countries, it is five times 
harder to get a visa today than it was, for the safety of our 
country.
    Dr. Keiser. Yes. We had a major program in China and we 
don't have that program anymore.
    Dr. Crow. What I am seeing is a concurrent push toward 
setting up American higher education abroad. If it is difficult 
to get the students into the country, then let us set up 
centers abroad to serve them there.
    Mr. Payne. I thought that outsourcing was bad already. 
Thank you very much. I agree that, you know, the students are 
the ones coming over here primarily, and we are keeping out the 
wrong people. I wish we could keep out the people who want to 
do harm to this country, but the students and the professors 
who are foreign born are having an absolutely horrible time.
    We had students afraid to go home for Christmas or 
Thanksgiving a couple of years ago because they were afraid 
they wouldn't be able to get back in.
    Once again, I appreciate the testimony, and I appreciate 
the Chairman giving me this extra time. I don't want to get 
into how jobs and areas that--you talked about the 80 percent 
going regional. And if you are going to make an evaluation 
based on job--job performance, and if you are in a depressed 
part of the country, then you are not going to show the same 
kinds of high indices that you are going to have in an area 
that is booming. But I don't have time to get into that.
    Chairman McKeon. Thank you.
    Mr. Tierney.
    Mr. Tierney. Mr. Payne yield? Thank you and thank the 
members of the panel. Let me take this on a different tack, if 
I could. What effect, if any, does a school's technology, the 
ability of that school to have technology on campus, provide it 
for the students or have its faculty use it as a tool in 
teaching, what effect does that have on accreditation or what 
should it have going forward?
    Dr. Davis. It is an expectation and a requirement that you 
have up-to-date technology, that you have policies that 
describe how you use that technology and that you evaluate it, 
the results of what it does to the educational process. And 
pretty much, in my experience, institutions that are not up to 
date, that have not done what they should do in terms of 
investment are not teaching at the level today that they should 
because it greatly enhances interaction between faculty and 
students and brings a world of knowledge to your fingertips 
that you have spent days trying to find in the library. The 
Internet itself is used every day in the classroom, in a 
pharmacy class or in a number of other programs. It is 
extremely important.
    Mr. Tierney. My concern with that is that with public 
higher education institutions, where they don't have the big 
foundations to provide them with resources to get those kinds 
of assets on campuses and where the State legislatures have 
been cutting back significantly every year, if we don't do 
something here and we have a piece in title 3 that allows us to 
do some grants for public higher education institutions to help 
smart campuses move forward, if we don't do that, then they are 
going to run the risk of falling out of accreditation.
    Dr. Keiser, I didn't mean to cut you off.
    Dr. Keiser. The national accreditation, especially our 
commission, we do two things that evaluate that process: One, 
we usually send out an employer, someone who is in the field, 
in the area, to help in the evaluation process to see that the 
equipment and the facility and the teaching methods are up to 
date and appropriate for the community.
    Additionally, we have a very specific requirement, program 
advisory Committees, that are including employers that review 
curriculum and review the technology that are included in the 
program.
    Mr. Tierney. Let me ask you: A number of campuses now are 
giving credit for life experiences, particularly to 
nontraditional students who are returning. What are your 
opinions on that and is it a good thing or a bad thing? Is it 
structured properly? And how do you evaluate the school's 
performance in granting that? How do you know when they are 
giving it appropriately and when they are not?
    Dr. Crow. I would be glad to speak to that. Structured 
appropriately--and that is, in fact, the key secret to it--I 
think it is an effective way to help, particularly adult 
students who are returning to the academy, to be able to show 
they have learned. It is not life experience; it is actual 
learning to show that they have achieved. And for many people 
in the kind of work they have been--and they have been active 
learners. It is not a classroom setting, but they have been 
active learners.
    I think part of the problem with the whole process is when 
an institution becomes too anxious to move people through a 
portfolio evaluation process or maybe doesn't use testing to 
double-check some of their evaluations. And there have been 
problems with that when an institution has been too generous in 
the award of credit. I think, well done, according to CAEL 
guidelines and some of the other agencies that really try to 
provide guidance about best practice in this, that it is an 
effective way, particularly to help adult learners move back 
into the academy.
    Dr. Erwin. In some areas, not all areas, we have assessment 
instruments in place where we require a level of competency. In 
some sense, we don't really care how students reach that level 
of competency. It could be through distance education, it could 
be through work experience or whatever. We just want to ensure 
that they are able to perform at a certain level in certain 
areas, not all across the institution, but certain areas.
    Mr. Tierney. Let me ask you, in the accrediting process 
does it take into account as a positive or a negative a 
school's attempts or efforts to expedite matriculation, to get 
students through faster than the 4-year process, maybe to 
either reach out to high schools and use some of the unused 
senior's high school year, time when they are hanging around, 
thinking that they have got all their requirements met? Does 
that weigh in at all, and how does it weigh in on a school's 
accreditation?
    Dr. Davis. In the independent sector, we pride ourselves in 
getting students through the 4-year program in 4 years or even 
faster. And many of our institutions will work with advanced 
placement programs from high schools. We will also work where 
they can advance their programs by going through the summers. 
And all of these--this is an attempt to help that student 
minimize the total cost while still assuring they get the 
quality education they need to be successful in whatever they 
are going to do.
    Mr. Tierney. Is the accreditation process interfering with 
that?
    Dr. Davis. It does require that you document that and does 
require that you evaluate and have records to show the basis on 
which you are doing that.
    Mr. Tierney. Dr. Martin, if I could exercise the license 
that we are doing around here.
    Chairman McKeon. Mr. Payne got extra time because he said 
nice things about me. He almost lost it, though, because he 
said different things in the back room.
    Mr. Tierney. There is an old saying that everything has 
been said, but not everybody said it yet. If we allow States to 
accredit, what is to stop them from not looking objectively 
enough at their own State institutions?
    Dr. Martin. The track record of a State's involvement in 
higher education in recent years is that they are looking very 
objectively because what they are trying to find objective 
measures of performance. In other words, they are interested in 
the kinds of questions we have been discussing here: What are 
the students actually learning? Can they write when they leave 
college? Do they have the quantitative skills they are going to 
need, the whole emphasis within the States these days?
    The State higher ed commissions and the people involved at 
the statewide level in higher education have been involved on 
these objective accountability measures. There is talk about 
performance funding: Can we shift the funding just from per 
student to some kind of performance success and quality 
measures? And so that is their passion.
    Mr. Tierney. I wonder about that. I see how radically they 
are cutting back on their State budgets for the public higher 
education institutions, and it borders on criminal. And I 
wonder if it is not going to get into a budgetary situation 
where they lower the bar just to prove that they weren't wrong 
politically when they cut them out of the budget. I see some 
heads nodding, and I guess I am not alone.
    Dr. Davis. If you check the staffing levels in many States 
over the last 10 years because of the budget crunch they have 
had, you will find they have reduced their staffs in some cases 
by half.
    Mr. Tierney. They will only have adjunct professors. They 
don't hire full-time professors in too many instances, I think.
    Dr. Keiser, did you want to answer?
    Dr. Keiser. My experience would be in working with the 
State agencies, that that would be a pattern. And again, the 
objectivity--I mean, they own the public institutions and they 
also would ultimately be a creditor and evaluator of 
institutional quality, and I am not sure that is the 
appropriate--
    Mr. Tierney. It doesn't bother you?
    Dr. Martin. One State does this now in a couple of areas 
and it wasn't a problem. It was open to all States until 1991. 
And some States are really interested in taking this job on 
because they are concerned about outcomes and performance.
    And you know, Justice Brandeis said that a great thing 
about federalism is, you have 50 laboratories in the States. So 
I think you would want to try it out. These are speculations.
    Mr. Tierney. You would reserve to the Department of 
Education the oversight of evaluating?
    Dr. Martin. Yes. They have to meet all the same standards 
that private accreditors do, and that is how it worked until 
1991 when a rule was somewhat arbitrarily imposed saying, let 
us let New York keep doing it, but not let anybody else.
    I think it is time to allow another option.
    Mr. Tierney. Thank you.
    Chairman McKeon. Thank you very much. We have a letter from 
a colleague not serving on this Committee. He is from your 
State.
    Mr. Tierney. Is my understanding correct on that, Mr. 
Chairman, that you prefer that be entered in another hearing, 
but there will be another hearing at which you will let it in?
    Chairman McKeon. Yes, before this Congress ends. It regards 
a different subject in the broader reauthorization, but a 
different subject. We will hold a hearing that will be more in 
tune with that. So we will hold that.
    Again, I want to thank the witnesses. I think you have done 
an outstanding job, and I think the members have asked good 
questions and this has been an outstanding hearing.
    There no further business. This Committee now stands 
adjourned.
    [Whereupon, at 12:45 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

  Statement of Hon. Jon Porter, a Representative in Congress from the 
                            State of Nevada

    Good Morning, Mr. Chairman. Thank you for convening this hearing on 
the best course of action that this Congress can take in increasing the 
accountability and quality of postsecondary education in this nation. I 
welcome our witnesses today and thank them for their willingness to 
share their valuable insights into this issue which so critically 
impacts the lives of all Americans as they seek the resources for 
continued success in our dynamic workforce.
    As we increase the accessibility and affordability of higher 
education, we must ensure that the quality of that education remains at 
the highest levels possible. Only by maintaining the quality of our 
postsecondary education can we expect Americans to successfully compete 
in our world economy. One particularly important aspect of this quality 
control issue is ensuring that we utilize all available resources in 
educating our students. Most notably, the advantages of the internet in 
disseminating knowledge and education will prove to greatly augment the 
levels of education available to those in outlying areas. We must 
ensure, however, that those institutions providing online education are 
providing just as good, or better levels of education than traditional 
brick and mortar establishments.
    With its mix of rural, suburban, and urban areas, my Congressional 
district, Nevada's Third District, will benefit greatly from expanded 
access and continued quality control. Our booming population requires 
increased access to higher education to ensure that Nevadans can access 
the increasingly skill-based jobs with which they are presented.
    Accreditation provides one means of ensuring that all schools that 
receive federal funding are meeting acceptable levels of teaching. I 
look forward to our continued investigation of the best means of 
implementing further accreditation requirements as we seek to improve 
the levels of higher education in our country. I wish to thank our 
panel of witnesses today and look forward to their testimony and 
insights into this most important issue.
                                 ______
                                 

  Letter from Jane V. Wellman, Senior Associate, Institute for Higher 
               Education Policy, Submitted for the Record

June 30, 2004

The Honorable Howard McKeon
Chairman
Subcommittee on 21st Century Competitiveness
U.S. House of Representatives

Dear Mr. Chairman:

    I am pleased to submit comments as requested by your staff on 
Section 1025 of H.R. 4283, the proposed legislation to reauthorize the 
Higher Education Act. This section directs the Secretary of Education 
to provide for a study of the best practices of States in assessing 
postsecondary student learning, particularly as such practices relate 
to public accountability systems. I base these comments on my 
experience in work with several States on public accountability 
systems, as a consultant to the Business-Higher Education Forum on 
their work on public accountability for student learning, with the 
State Higher Education Executive Officers Commission on Accountability, 
and on work I have done on these issues with the National Governors 
Association Center for Best Practices.
    Section 1025 requires the Secretary of Education to select an 
organization or association for the study based on: expertise in state 
practices, access to state officials, expertise in evaluative and 
qualitative policy research for best practice models, the capacity to 
convene experts, and the capacity to formulate policy recommendations. 
The language requires that the work be done in consultation with an 
advisory committee, but permits the contracting organization to draw 
its own conclusions potentially independently of the advisory process.
    Based on my work in this field, I am confident there are several 
organizations that could meet these criteria, and could perform the 
study as required. I also believe the topic is an important one that 
will benefit from the work described. A good deal of work is being done 
on this issue, including the current work of the SHEEO Commission and 
the Business Higher Education Forum. But much more remains to be done, 
especially at the national level, to bring focus to the topic. And as 
it develops, the timing of the reauthorization now means that there 
will be an opportunity for the Congressionally mandated study to build 
on these other processes now underway.
    I'd like to confine my comments on a few elements where the bill 
language is potentially ambiguous, and might benefit from some 
modification.
    1)  Selection of advisory committee members. I am not clear whether 
the advisory committee members are to be selected by the Secretary, or 
by the contracting association. I believe the latter to be preferable, 
to remove any ambiguity about authority, and to expedite the work.
    2)  Section 3 requires the organization to examine ``The 
reliability, rigor, and generalizability of available instruments to 
assess general education at the undergraduate level.'' This language 
seems perfectly clear; however, higher education being what it is, some 
clarification of focus might be helpful. The language implies that the 
Committee is interested in supplemental assessments beyond those that 
are required at the individual course level. Also, the words 
``reliability'' and ``generalizability'' suggest that the Committee may 
want to confine the review to instruments that have been externally 
reviewed for statistical reliability. If these interpretations are 
correct, the language might be clarified to remove any potential 
ambiguity.
    3)  The study requires conclusions to be drawn about ``best 
practices'' of States in assessing undergraduate postsecondary student 
learning as an element of state accountability systems. For good or 
ill, a ``practice'' can become a ``best practice'' because it is 
pervasive, or readily available, or inexpensive, and not necessarily 
because it helps states to improve their state policies. To do this 
study well, the association should be able to reach judgments about 
best practices in state accountability systems, as well as in the 
relation of student learning assessment to state accountability. It 
could be the case, for instance, that some states have decided not to 
embed direct assessments of student learning into their public 
accountability systems, and one would not want to exclude these systems 
from a best practice assessment because of this.
    4)  Paragraph c/4 requires the study to comment on ``roles and 
responsibilities for public accountability for student learning.'' The 
association should be required to comment in particular on the best 
role for federal policy in supporting public accountability for student 
learning--understanding that the ``right'' answer to the question 
depends on the results of the study and the judgments of the 
organization conducting it. There is a good deal that is known about 
effective practices for student learning assessment at the individual 
course level. There is also a large body of expertise about best 
practices for institutional policies on student learning assessments. 
The topic becomes much murkier about the purpose of governmental 
attention to student learning assessments, in particular the 
appropriate role for the federal government. So special attention to 
that important and difficult topic may be warranted.
    Thank you for the opportunity to comment.

Best wishes,

Jane V. Wellman
Senior Associate
The Institute for Higher Education Policy
                                 ______
                                 

Statement of the Distance Education and Training Council, Submitted for 
                               the Record

    H.R. 4283 would make significant changes to federal student aid 
programs affecting millions of students and thousands of institutions. 
The Distance Education and Training Council (DETC) feels privileged to 
be offered the opportunity to comment briefly on the Bill's 
accreditation and accountability sections.
    DETC supports H.R. 4283, and commends its sponsors for their 
efforts to open up the financial aid system and take the needs and 
interests of students to heart.
Transparency
    Accreditation actions would become more transparent to the public 
under the Bill, and DETC supports transparency when it is uniformly 
applied. Although the accreditation transaction historically involved 
only the accrediting association and the institution, it also affects 
the public in general and students in particular.
    DETC has always acknowledged that it plays a quasi-governmental 
role, and that by serving as a gatekeeper for federal funding for 
students, it has a serious obligation to protect the public interest.
    DETC already publishes a great deal of information about its 
accrediting decisions and is willing to publish more, such as an annual 
list of evaluators who volunteer to serve the accrediting program. 
However, we must not forget that ours is a litigious society, and that 
accrediting agencies are sometimes sued when they remove accreditation. 
Any step toward providing more transparency in the process should be 
taken only after assuring all parties that volunteers will not become 
vulnerable to legal actions.
Disclosures
    We understand H.R. 4283 can address the critical issue of 
accountability by requiring that more information be made available to 
help students make better-informed decisions. DETC supports the concept 
of providing useful information to potential students. As an 
association which accredits only distance education institutions which 
make significant use of the Internet to market their offerings, DETC is 
familiar with the promotional tactics of all online learning 
institutions in the country. The current state of marketing practices 
suggests that the field is not level when it comes to fair play in 
terms of disclosing meaningful information and credit transfer 
practices.
    DETC strongly endorses making commonly accepted data and 
information available in a usable and easily understood form that would 
empower students to ``comparison shop'' on their own. We would expect 
similar benefits to flow to students if they are well informed when 
comparing one college's fixed facility programs with another.
    DETC welcomes disclosures when they are uniformly and fairly 
applied across the spectrum of higher education institutions.
Access to a Degree
    DETC enthusiastically supports the Bill's efforts to make higher 
education more accessible to low and middle-income students. DETC 
accredits institutions whose students include many individuals unable 
to afford the increasingly high costs of attending a traditional 
college.
    Many thousands of adults in our society face the demands of full-
time employment and/or raising a family. For example, DETC Outstanding 
Graduate Sharon Steinbacher was determined to further her education, 
but her full-time job and family responsibilities limited her time. 
Sharon enrolled in a DETC school and earned her Bachelor of Science in 
Information Systems in only sixteen months. She graduated magna cum 
laude. Distance learning gives motivated students like Sharon a 
wonderful, affordable opportunity to earn a degree and improve their 
lives. DETC is a proud advocate of distance learning and what it has 
been able to do for these deserving citizens.
    Lifting the ban on institutions that teach solely through distance 
education via telecommunications is perhaps the single most powerful 
feature of H.R. 4283. The Bill's sponsors are to be commended for 
taking this much-needed action to reach out to deserving adult 
learners.
Fair Credit Transfer Policies
    For many years now, DETC institutions have had to intervene on 
behalf of their graduates in presenting their cases to collegiate 
registrars and faculty at other institutions who observe outdated 
credit transfer policies.
    DETC strongly supports the Bill's goal of reducing the systemic 
bias in higher education on the matter of credit transfer. Admittedly, 
there are many sensitive academic considerations involved, and 
institutional autonomy is vital, but we have yet to see a convincing 
justification for rejecting student requests for transfer credit based 
solely on the source of the accreditation yet this happens routinely 
today.
    DETC welcomes the effort to provide opportunities for learners to 
transfer their credits and degrees to other institutions. DETC strongly 
believes that academic transcripts should be considered on the merits 
of their content and relevance, not simply on the accreditation source.
A Word About DETC
    DETC has a unique program to ensure educational quality. By design 
and intent, distance education programs are content-rich, and curricula 
materials play a major role in determining a program's educational 
effectiveness.
    DETC evaluates every program offered by an applicant institution, 
with an exception made for military institutions that offer hundreds of 
programs, such as the Army Institute for Professional Development, the 
Air Force Institute for Advanced Distributed Learning and the U.S. 
Marine Corps Institute.
    The overwhelming majority of students in DETC-accredited 
institutions are adult learners who are already employed. They are in a 
good position to assess the value of these programs.
    DETC's outcomes assessment program tracks and compares program 
completion data. The assessment also includes the consideration of the 
usual third-party evaluations (e.g., state license examinations). But 
many other programs do not have such individual third party tests. It 
is important to note that DETC's primary emphasis in outcomes 
assessment focuses on whether the student is satisfied with his or her 
educational experience. This is the kind of data that we think should 
be disclosed: Are the students satisfied? Do they feel they attained 
their education goals?
    Finally, we believe the public has a legitimate interest in 
accreditation. This is why the Chair of our Accrediting Commission has 
always been drawn from the public sector, and why, for several decades, 
public members constituted a majority of our Commission membership.
    These characteristics of DETC probably make it easier for us to 
support H.R. 4283's efforts to make higher education accreditation more 
transparent, better understood and more accountable to students and 
taxpayers.
    We believe that H.R. 4283 takes some good steps toward opening up 
the process and making the playing field level for all institutions.
                                 ______
                                 

         Letter from Bruce D. Benson, Submitted for the Record

6 July 2004

Mr. John Boehner
Chairman
House Education and the Workforce Committee
2181 Rayburn House Office Building Washington, DC 20515

Dear John:

    I am chairman of the board of trustees of Metropolitan State 
College and former chairman of the Colorado Commission on Higher 
Education. Based on my experience, I would like to endorse Section 
495(a)(1)(B) or HR.. 4283, the College Access & Opportunity Act, which 
restores the provisions of the Higher Education Act That allows the 
states, as well as private accreditors, to certify colleges for 
purposes of the federal student loan program.
    In Colorado, the public--including parents, employer's students and 
taxpayers--is concerned about whether today's students will be 
adequately educated to face tomorrow's challenges. As a result, state 
leadership--especially the Governor, legislators, and the Colorado 
Commission on Higher Education--is looking for ways to raise academic 
standards and improve educational results.
    In an ideal world, regional accereditors would already be 
effectively addressing these issues, but that is not the case. 
Accrediting criteria focus on inputs rather than outputs. Accreditors 
seem more interested in up holding the status quo than in demanding 
real academic improvements.
    The original Higher Education Act was wise in allowing states, as 
well as private accreditors, to certify colleges. That would prevent 
accreditors from being monopolies and would provide healthy competition 
that would encourage them to do a better job. The state alternative 
would also give colleges like my own, which do care about educational 
quality, certification by an agency that shares this concern.
    Every state already has procedures for certifying institutions of 
higher education that operate within its borders. And state agencies 
like the Colorado Commission on Higher Education already collect data 
and conduct a variety of quality reviews on schools in their states. I 
understand that, thanks to a grandfather clause, New York already 
accredits some types of higher education institutions. If New York can 
accredit, why not Colorado and other states, if they choose?
    In short, allowing states to accredit brings healthy competition 
into the world of accreditation, and provides a valuable alternative to 
colleges which have a strong desire to improve the quality of education 
for their students.
    I would like to thank you for your leadership on this issue

Sincerely,

Bruce D. Benson
Denver, Colorado

 Letter from the Council of Recognized National Accrediting Agencies, 
                        Submitted for the Record

July 19, 2004

The Honorable John A. Boehner, Chairman
Committee on Education and the Workforce
U.S. House of Representatives
2181 Rayburn House Office Building
Washington, DC 20515

The Honorable Howard ``Buck'' McKeon, Chairman
Subcommittee on 21st Century Competitiveness
2351 Rayburn House Office Building
Washington, DC 20515

Dear Congressmen Boehner and McKeon:

    On behalf of the Council of Recognized National Accrediting 
Agencies (CRNAA), we would like to express our support for the 
provisions of H.R. 4283 that address the role of accreditation. The 
CRNAA commends you and the Committee staff for making accountability 
and transparency in accreditation a priority during reauthorization of 
the Higher Education Act. We would also like to thank Chairman McKeon 
for holding the June 22``dhearing on accreditation and for including 
Art Keiser as a witness representing the Accrediting Commission of 
Career Schools and Colleges of Technology (ACCSCT) and the views of 
national accrediting agencies generally.
    CRNAA is an alliance of national accrediting agencies. All of these 
accrediting agencies are recognized by the Secretary of the U.S. 
Department of Education under Section 496 of the Act. Together, the 
accrediting agencies participating in the CRNAA accredit approximately 
3,100 institutions with four millions students trained and educated 
each year.
    Accrediting bodies have served for many years in a gatekeeping 
capacity, ensuring both quality and integrity in higher education. 
CRNAA's members share your interest in increasing both student and 
parent awareness of the accreditation process; the important role it 
plays; and information to guide their consideration in selecting a 
school to attend. CRNAA believes that several of the disclosure 
provisions included in section 495 of H.R. 4283 accomplish this goal.
    CRNAA also agrees with the legislation's intent to strengthen the 
role of accreditation as part of the effort to level the Title IV 
playing field for all higher education institutions and their students. 
In particular, CRNAA welcomes the bill's provisions on the transfer of 
credit. These provisions would prohibit institutions and accrediting 
agencies from adopting or applying policies that restrict or deny 
students the transfer of their credits solely on the basis of an 
institution's accreditation, on the condition that the agency 
accrediting the institution is recognized by the Secretary. These 
provisions would also require accrediting agencies to include a review 
of an institution's policies on transfer of credit.
    Increasingly, students decide to continue or expand their education 
at multiple institutions, but are often hindered by their inability to 
transfer credits. The denial of credit transfers inhibits individual 
student initiatives, delays completion, and increases the cost of 
postsecondary education by forcing students to pay for comparable 
courses more than once. This situation puts an unnecessary financial 
strain on both individual students and on our Title IV student aid 
system. Unduly restrictive transfer policies burden the already 
stretched capacity of the higher education system. CRNAA appreciates 
the inclusion of language addressing this problem in both the 
institutional disclosure section of the bill, as well as in the 
accreditation section. Importantly, the legislation is also careful to 
recognize that institutions must maintain their autonomy over making 
transfer of credit decisions but based on more relevant criteria, such 
as the student's proficiency and equivalency in courses.
    CRNAA additionally supports the legislation's intent to rely on 
accreditation as a gatekeeper to quality in the area of distance 
education. However, CRNAA's members have concerns with the current 
legislative language requiring a comparison of distance education to 
campus settings as the measure of quality for instruction and support 
services in the distance education area. Distance education is 
different from education provided in a campus setting and while 
accrediting agencies should review all institutions with the same 
rigor, it is important that the distinctions in distance education be 
recognized by accrediting agencies in their assessment of quality.
    CRNAA understands that you have received specific comments on 
student achievement, transparency and distance education from some of 
its members. We are hopeful that you and the Committee will consider 
those comments and that the issues we have raised will be addressed 
during the continuing legislative process.
    The Commission looks forward to working with you and the staff as 
the legislation advances through Congress.

Sincerely,

Roger J. Williams, Executive Director
Accrediting Council for Continuing Education and Training (ACCET)

Carol Moneymaker, Executive Director
Accrediting Bureau of Health Education Schools (ABHES)

Elise Scanlon, Executive Director
Accrediting Commission of Career Schools and Colleges of Technology 
(ACCSCT)

Steven Eggland, Executive Director
Accrediting Council for Independent Colleges and Schools (ACICS)

Gary Puckett, Executive Director
Council on Occupational Education (COE)

Michael Lambert, Executive Director
Distance Education and Training Council (DETC)

                                 <all>

</pre></body></html>
